<html>
<title> - RECOVERY ACT: 120-DAY PROGRESS REPORT FOR TRANSPORTATION PROGRAMS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
   RECOVERY ACT: 120-DAY PROGRESS REPORT FOR TRANSPORTATION PROGRAMS

=======================================================================

                                (111-45)

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 25, 2009

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure


                  U.S. GOVERNMENT PRINTING OFFICE
50-765                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
ELLEN O. TAUSCHER, California        TODD RUSSELL PLATTS, Pennsylvania
LEONARD L. BOSWELL, Iowa             SAM GRAVES, Missouri
TIM HOLDEN, Pennsylvania             BILL SHUSTER, Pennsylvania
BRIAN BAIRD, Washington              JOHN BOOZMAN, Arkansas
RICK LARSEN, Washington              SHELLEY MOORE CAPITO, West 
MICHAEL E. CAPUANO, Massachusetts    Virginia
TIMOTHY H. BISHOP, New York          JIM GERLACH, Pennsylvania
MICHAEL H. MICHAUD, Maine            MARIO DIAZ-BALART, Florida
RUSS CARNAHAN, Missouri              CHARLES W. DENT, Pennsylvania
GRACE F. NAPOLITANO, California      CONNIE MACK, Florida
DANIEL LIPINSKI, Illinois            LYNN A WESTMORELAND, Georgia
MAZIE K. HIRONO, Hawaii              JEAN SCHMIDT, Ohio
JASON ALTMIRE, Pennsylvania          CANDICE S. MILLER, Michigan
TIMOTHY J. WALZ, Minnesota           MARY FALLIN, Oklahoma
HEATH SHULER, North Carolina         VERN BUCHANAN, Florida
MICHAEL A. ARCURI, New York          ROBERT E. LATTA, Ohio
HARRY E. MITCHELL, Arizona           BRETT GUTHRIE, Kentucky
CHRISTOPHER P. CARNEY, Pennsylvania  ANH ``JOSEPH'' CAO, Louisiana
JOHN J. HALL, New York               AARON SCHOCK, Illinois
STEVE KAGEN, Wisconsin               PETE OLSON, Texas
STEVE COHEN, Tennessee
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
PARKER GRIFFITH, Alabama
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico

                                  (ii)



                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................     v

                               TESTIMONY

Babbitt, Hon. J. Randolph, Administrator, Federal Aviation 
  Administration.................................................    15
Boardman, Joseph H., President and CEO, AMTRAK...................    15
Brown, Hon. Larry L. ``Butch,'' Executive Director and Chief 
  Administrative Officer, Mississippi Department of 
  Transportation, Representing the American Association of State 
  Highway and Transportation Officials...........................    65
Casey, Joseph M., General Manager, Southeastern Pennsylvania 
  Transportation Authority, Representing the American Public 
  Transportation Association.....................................    65
Keating, John, President and Chief Operating Officer, Oldcastle 
  Materials Group East, Representing the American Road & 
  Transportation Builders Association............................    65
Paniati, Jeffrey F., Acting Deputy Administrator, Federal Highway 
  Administration.................................................    15
Penrod, Brad, Director and CEO, Allegheny County Airport 
  Authority, Representing the Airports Council International 
  North America..................................................    65
Rogoff, Hon. Peter M., Administrator, Federal Transit 
  Administration.................................................    15
Szabo, Hon. Joseph C., Administrator, Federal Railroad 
  Administration.................................................    15

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Carnahan, Hon. Russ, of Missouri.................................    88
Mitchell, Hon. Harry E., of Arizona..............................    89
Oberstar, Hon. Jim L., of Minnesota..............................    90
Richardson, Hon. Laura, of California............................    96

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Babbitt, Hon. J. Randolph........................................   100
Boardman, Joseph H...............................................   110
Brown, Hon. Larry L. ``Butch''...................................   115
Casey, Joseph M..................................................   124
Keating, John....................................................   128
Paniati, Jeffrey F...............................................   143
Penrod, Brad.....................................................   152
Rogoff, Hon. Peter M.............................................   161
Szabo, Hon. Joseph C.............................................   167

                       SUBMISSIONS FOR THE RECORD

Babbit, Hon J. Randolph, Administrator, Federal Aviation 
  Administration.................................................
      Response to request for information from Rep. LoBiondo.....    29
      Response to request for information from Rep. Boozman......    33
Keating, John, President and Chief Operating Officer, Oldcastle 
  Materials Group East, Representing the American Road & 
  Transportation Builders Association, response to question from 
  Rep. Michaud...................................................   142
Mica, Hon. John L., a Representative in Congress from Florida....
      Charts entitled, "May 2009 Unemployment Rate and Total 
        Stimulus Transportation Outlays in Dollars by State" and 
        "DOT Outlays for Top 10 Highest Unemployment States".....     5
      "Minority Report: The American Recovery and Reinvestment 
        Act of 2009 Committee on Transportation and 
        Infrastructure Recovery Act: 120-Day Progress Report for 
        Transportation Programs June 25, 2009"...................     8
Paniati, Jeffrey F., Acting Deputy Administrator, Federal Highway 
  Administration.................................................
      Response to request for information from Rep. Michaud......    37
      Response to question from Rep. Richardson..................    50
      Response to question from Rep. Richardson..................    52
      Response to question from Rep. Edwards.....................    55
      Response to question from Rep. Norton......................    64

                        ADDITIONS TO THE RECORD

Committee on Transportation and Infrastructure, "Process for 
  Ensuring Transparency and Accountability in Use of Highway 
  Recovery Funds - Year 1", chart................................   175

[GRAPHIC] [TIFF OMITTED] T0765.001

[GRAPHIC] [TIFF OMITTED] T0765.002

[GRAPHIC] [TIFF OMITTED] T0765.003

[GRAPHIC] [TIFF OMITTED] T0765.004

[GRAPHIC] [TIFF OMITTED] T0765.005

[GRAPHIC] [TIFF OMITTED] T0765.006

[GRAPHIC] [TIFF OMITTED] T0765.007

[GRAPHIC] [TIFF OMITTED] T0765.008

[GRAPHIC] [TIFF OMITTED] T0765.009

[GRAPHIC] [TIFF OMITTED] T0765.010

[GRAPHIC] [TIFF OMITTED] T0765.011

[GRAPHIC] [TIFF OMITTED] T0765.012

[GRAPHIC] [TIFF OMITTED] T0765.013

[GRAPHIC] [TIFF OMITTED] T0765.014

[GRAPHIC] [TIFF OMITTED] T0765.015

[GRAPHIC] [TIFF OMITTED] T0765.016

[GRAPHIC] [TIFF OMITTED] T0765.017

[GRAPHIC] [TIFF OMITTED] T0765.018

[GRAPHIC] [TIFF OMITTED] T0765.019

[GRAPHIC] [TIFF OMITTED] T0765.020

[GRAPHIC] [TIFF OMITTED] T0765.021

[GRAPHIC] [TIFF OMITTED] T0765.022

[GRAPHIC] [TIFF OMITTED] T0765.023

[GRAPHIC] [TIFF OMITTED] T0765.024

[GRAPHIC] [TIFF OMITTED] T0765.025

[GRAPHIC] [TIFF OMITTED] T0765.026

[GRAPHIC] [TIFF OMITTED] T0765.027

[GRAPHIC] [TIFF OMITTED] T0765.028

[GRAPHIC] [TIFF OMITTED] T0765.029

[GRAPHIC] [TIFF OMITTED] T0765.030

[GRAPHIC] [TIFF OMITTED] T0765.031

[GRAPHIC] [TIFF OMITTED] T0765.032

[GRAPHIC] [TIFF OMITTED] T0765.033

[GRAPHIC] [TIFF OMITTED] T0765.034

[GRAPHIC] [TIFF OMITTED] T0765.035

[GRAPHIC] [TIFF OMITTED] T0765.036

[GRAPHIC] [TIFF OMITTED] T0765.037

[GRAPHIC] [TIFF OMITTED] T0765.038

[GRAPHIC] [TIFF OMITTED] T0765.039

[GRAPHIC] [TIFF OMITTED] T0765.040

[GRAPHIC] [TIFF OMITTED] T0765.041

[GRAPHIC] [TIFF OMITTED] T0765.042

[GRAPHIC] [TIFF OMITTED] T0765.043

[GRAPHIC] [TIFF OMITTED] T0765.044

[GRAPHIC] [TIFF OMITTED] T0765.045

[GRAPHIC] [TIFF OMITTED] T0765.046

[GRAPHIC] [TIFF OMITTED] T0765.047

[GRAPHIC] [TIFF OMITTED] T0765.048

[GRAPHIC] [TIFF OMITTED] T0765.049

[GRAPHIC] [TIFF OMITTED] T0765.050

[GRAPHIC] [TIFF OMITTED] T0765.051

[GRAPHIC] [TIFF OMITTED] T0765.052

[GRAPHIC] [TIFF OMITTED] T0765.053

[GRAPHIC] [TIFF OMITTED] T0765.054

[GRAPHIC] [TIFF OMITTED] T0765.055

[GRAPHIC] [TIFF OMITTED] T0765.056

[GRAPHIC] [TIFF OMITTED] T0765.057

[GRAPHIC] [TIFF OMITTED] T0765.058

[GRAPHIC] [TIFF OMITTED] T0765.059

[GRAPHIC] [TIFF OMITTED] T0765.060

[GRAPHIC] [TIFF OMITTED] T0765.061

[GRAPHIC] [TIFF OMITTED] T0765.062

[GRAPHIC] [TIFF OMITTED] T0765.063

[GRAPHIC] [TIFF OMITTED] T0765.064

[GRAPHIC] [TIFF OMITTED] T0765.065

[GRAPHIC] [TIFF OMITTED] T0765.066

[GRAPHIC] [TIFF OMITTED] T0765.067

[GRAPHIC] [TIFF OMITTED] T0765.068

[GRAPHIC] [TIFF OMITTED] T0765.069



  HEARING ON RECOVERY ACT: 120-DAY PROGRESS REPORT FOR TRANSPORTATION 
                                PROGRAMS

                              ----------                              Th
ursday, June 25, 2009,


                       House of Representatives,

           Committee on Transportation and 
                            Infrastructure,
                            Washington, DC.
    The Committee met, pursuant to call, at 11:00 a.m., in Room 
2167, Rayburn House Office Building, the Honorable James L. 
Oberstar [Chairman of the Committee] presiding.
    Mr. Oberstar. The Committee on Transportation and 
Infrastructure will come to order. This is the second in the 
series of continuing oversight hearings that I committed us to 
undertake at the outset of the Recovery Act.
    In fact, in December of 2007, I proposed an initiative to 
get the economy moving again with programs under the 
jurisdiction of this Committee. Actually, we had bipartisan 
initiative in this Committee to move things forward. Of course, 
the Administration at that time wasn't keen on doing that. It 
seems that not much has changed. The current Administration is 
not much interested in moving a six year transportation bill. 
But we are ahead of them.
    As we drafted the Transportation and Infrastructure 
Committee's portions of the American Recovery Act, I set forth 
standards that there would be accountability, transparency, and 
reporting; that projects should be equitably distributed 
throughout the State; and that priority consideration should be 
given to the areas of highest unemployment as measured by the 
Economic Development Administration's monthly reports on areas 
of high unemployment throughout the Country.
    We committed to openness, transparency, and accountability. 
This second of the hearings carries through on that commitment. 
It is hard to believe that just 120 days ago, the bill was 
signed into law.
    I have to give great credit to the Federal Highway 
Administration, as well as to the Department of Transportation 
overall. Today's hearing, by the way, is only on the DOT 
portions of our Recovery Act provisions. We will have another 
hearing after the July recess on wastewater treatment and 
drinking water infrastructure. The GSA, the Coast Guard, and 
others will report to us in that second hearing.
    There was a report in a newspaper, there were several 
reports, actually, that sort of misstates or misunderstands the 
way these Federal programs work. There is a commentary that 
States ``have received only $132 million of the Stimulus 
package's $27.5 billion in road construction funding.'' That is 
accurate but it does not accurately state the issue. States 
have been reimbursed for $132 million.
    The Stimulus program works just like the regular Federal 
Aid Highway Program. States are notified by the Federal Highway 
Administration of their allocation. State DOTs, to be very 
precise about it, then advertise for bids, invite bids, and 
evaluate the bids as they come in. Then they award bids. The 
contractor begins work and bills the State. The State then 
bills the Federal Highway Administration. The Federal Highway 
Administration reimburses the State against submitted vouchers. 
That is how it has always worked.
    A good comparison would be if you are hired on at a pay of 
$50,000. When your first month's pay is one twelfth of that 
amount, $4,000 let us say, you don't complain that you didn't 
get paid. You are paid for that first month's work. States 
don't get their entire allocation all at one time. They are 
paid against their vouchers for the work completed 
incrementally by contractors.
    Actually, all of the $27 billion was allocated by the 
Federal Highway Administration. States were told what their 
respective apportionments would be under the formula because 
all of the money went out by the existing Federal Aid Highway 
formula. The States then began their processes.
    Now, the reality is that there are 4,366 projects that have 
been approved from all States, three of the four territories, 
and the District of Columbia. These represent $14.4 billion or 
54 percent of the highway funds in the Recovery Act. As of May 
31, 2009 the date of reporting to us, 4,098 projects have been 
put out to bid. There are signed contracts on 2,294 projects 
totaling a value of $6.5 billion. Work is underway on 1,243 of 
those projects and there are 21,000 on site jobs.
    The next report that we receive for the next 30 days will 
follow the trail and will go upstream to the supply chain. I 
think today we will hear from the sand and gravel pit operators 
that, in anticipation of the money, called people back to work. 
They reopened gravel pits and aggregate operations in 
anticipation.
    Some of the work of the Recovery is ahead of the schedule. 
The numbers aren't showing up in the accounting. Others follow 
as the contracts are signed and construction crews are out on 
the job sites. If we continue at this pace, I think we will be 
able to see by the end of September a quarter of a million 
construction jobs underway.
    The purpose of this hearing is to hear the reports from 
each of the modal Administrators and also to hear of any 
obstacles or difficulties in the way of moving the funding out 
into the stream. I am confident that this program is off to a 
fast and a good start.
    I think there are other sectors like the Corps of Engineers 
where work is slower. They didn't get their allocation early 
on, as early as Highway and Transit did. Wastewater treatment 
didn't get their funding as early on as they should have. We 
will hear about that in the first week after the July recess.
    I know in my own State of Minnesota, the State Revolving 
Loan Fund Administrators have taken their $123 million 
wastewater treatment and drinking water treatment funding and 
leveraged it into a $502 million program. They are moving ahead 
with projects all throughout the State. There are towns that 
did not have a sewer system that are now underway building a 
sewer system. Others had only ponds and are now putting in 
treatment facilities.
    So there are going to be some very, very exciting success 
stories as we move into the next phase. I withhold any further 
comment at this time and yield to the distinguished gentleman 
from Florida, my partner Mr. Mica.
    Mr. Mica. I thank the Chairman, also for our mutual efforts 
to try to hold everybody's feet to the fire on Congress's 
intent to get people working and get some of the Stimulus money 
out.
    For our Committee, of course when we passed the $787 
billion Stimulus package, most folks thought that 90 percent, 
80 percent, 70 percent of that would be for infrastructure. 
They thought that we would deal with our Nation's crumbling 
highways, bridges, ports, airports, and the roads they go over 
daily and that they would see dramatic improvements. As it 
turned out, Mr. Oberstar and I were only able to get about 7 
percent of that entire package for infrastructure. One of the 
reasons we couldn't get it was because--it was the CBO that 
scored it--they said that they could only get out $63 billion 
in the time allotted.
    Mr. Oberstar. Would the gentleman yield?
    Mr. Mica. Yes.
    Mr. Oberstar. They actually said we could only spend out at 
a rate of 2.4 percent. They were wrong.
    Mr. Mica. Okay. Well, in any event, we got an agreement to 
get out $63 billion, I think, under our purview, which is a 
small percentage of the total package.
    One of my concerns then, one of my concerns today, and one 
of my concerns for the future is the problem of Government red 
tape, Government bureaucracy, and Government hoops. Now, we 
tried to send the money to the States to distribute it in an 
orderly fashion. Our intent was not to pick project winners and 
losers, right, Mr. Oberstar, but to do it in an orderly 
fashion. The problem is we are getting strangled again with 
Government red tape, with bureaucracy.
    I prepared a little Minority report. This is our 120 day 
report. I asked our staff to put together where the money is. 
Let us follow the money. Well, we had $48 billion given to the 
Department of Transportation. As of May 29th, the amount 
obligated was $15.7 billion. I have gotten two update reports. 
One was the end of May, the first day of June. We only had $154 
million in outlay, in real work being done, out of $48 billion. 
I have the latest update, and we will probably get this from 
the Administrator today, of $369 million. Folks, that is just 
pennies on the dollar, fractions of a penny on a dollar of what 
we have made available.
    Now, don't say that Mica is saying that we are mired in red 
tape. Let me just give you a sampling of commentary that I 
have, part from the public record. Norwalk, Connecticut Mayor 
Richard Moccia said after a Mayors' conference, ``We really 
need to talk about eliminating some of the bureaucratic things 
that Washington forces on the States.'' He is talking about why 
he can't move forward with the stimulus package.
    Missouri DOT Director Pete Rahn, this is what he said, 
``Federal requirements have been taken to a new level. We are 
going to have to dedicate additional staff, even, to do the 
record keeping and auditing required under these new 
procedures.'' The Madison, I guess this is Madison, Wisconsin, 
MPO informed their locality about the difficulty in getting 
money disbursed for projects. ``Ironically, it won't do much 
for job creation this year because the American Recovery and 
Reinvestment Act requires piles of red tape to get Federal 
funding and it will delay people going to work for a year.''
    Now, I am just giving you a small sampling of what they are 
telling us as far as the difficulty in getting people to work. 
I have been home, folks. I have got a lot of folks hurting. 
Florida just went over 10 percent into double digit 
unemployment. Nationally, we are now at 9.4 percent. I have one 
county with 15 percent unemployment. Not one person asked me to 
come to Washington and pass more red tape. People want jobs and 
they want them now.
    Finally, in this report, and actually it is not included in 
the back of the report but I think we have distributed these to 
Members, we have taken the figures provided by DOT. You can see 
the outlays, the unemployment rate in each of the States, and 
also the amount of money again that has been expended. What I 
did on this particular chart here, these are the top ten 
highest unemployment States including the District of Columbia. 
It shows the amount of outlay as of June 1st on this particular 
one, $11 million.
    Folks, this is pitiful that we cannot get people working, 
that we can't get this Stimulus money out. We are tied up in 
red tape and bureaucracy. We have created that. So we have got 
to do something, Mr. Oberstar and Members of this Committee, to 
figure out a way to get people working the jobs. We have got to 
cut the red tape right now under Stimulus and in the long term 
under the bill that is under consideration for reauthorization 
for the next six years.
    I thank our witnesses. I look forward to hearing from them. 
Some of them have done an excellent job. Mr. Babbitt is going 
to report on successes from FAA. I know they are trying but 
their main constraint, their main problem, you guys know it, 
and there are a couple of gals that are not speaking, but you 
all know it, the main problem is right here: Congress. So 
hopefully we can figure out a way to help you do your job and 
get this money out quicker and get people to work faster.
    I yield back the balance of my time.
    [The referenced information follows:]

    [GRAPHIC] [TIFF OMITTED] T0765.070
    
    [GRAPHIC] [TIFF OMITTED] T0765.071
    
    [The referenced information follows:]

    [GRAPHIC] [TIFF OMITTED] T0765.072
    
    [GRAPHIC] [TIFF OMITTED] T0765.073
    
    [GRAPHIC] [TIFF OMITTED] T0765.074
    
    [GRAPHIC] [TIFF OMITTED] T0765.075
    
    [GRAPHIC] [TIFF OMITTED] T0765.076
    
    [GRAPHIC] [TIFF OMITTED] T0765.077
    
    [GRAPHIC] [TIFF OMITTED] T0765.078
    
    Mr. Oberstar. I thank you. Thank you, Mr. Mica. I 
appreciate and would like to read your report. I will look 
forward to doing that.
    I frankly have little sympathy for the complaints of State 
DOTs that they are subjected to reporting requirements. That is 
part of the transparency; that is part of the oversight. We 
told them that they are going to do this and gave them a 
mechanism by which to do it. It is called a flash drive. It is 
the size of my thumb. The State of Minnesota uses that. There 
is no paper reporting in from contractors in the field. There 
is no lengthy paper documentation. It is all submitted 
electronically, instantaneously from the field.
    In every one of the 87 counties in the State of Minnesota, 
the County Engineer has a flash drive that they gather 
information on. Contractors report daily into the State DOT. We 
supplied that technology. We made it available through AASHTO 
to all other States. Most States have that.
    I have no sympathy for people saying this is burdensome. 
Look, you are getting 100 percent Federal funds. You have 100 
percent responsibility to be accountable for it. You have 100 
percent responsibility to tell us what you are doing with it. 
You can do it instantaneously without additional paperwork. So 
I want to hear what their complaints are, but frankly, on the 
surface of it, I have little sympathy.
    Our panel today consists of very distinguished 
Administrators of the modal Administrations of the Department 
of Transportation. We will begin with Mr. Babbitt. You are 
newly anointed, but that is not quite the word, is it?
    [Laughter.]
    Mr. Babbitt. I don't think anointment was the term.
    Mr. Oberstar. Pouring of holy oils on the head thereof?

   TESTIMONY OF J. RANDOLPH BABBITT, ADMINISTRATOR, FEDERAL 
   AVIATION ADMINISTRATION; JOSEPH C. SZABO, ADMINISTRATOR, 
       FEDERAL RAILROAD ADMINISTRATION; PETER M. ROGOFF, 
   ADMINISTRATOR, FEDERAL TRANSIT ADMINISTRATION; JEFFREY F. 
     PANIATI, ACTING DEPUTY ADMINISTRATOR, FEDERAL HIGHWAY 
  ADMINISTRATION, AND JOSEPH H. BOARDMAN, PRESIDENT AND CEO, 
                             AMTRAK

    Mr. Babbitt. Good morning, Chairman Oberstar, Ranking 
Member Mica, and Members of this Committee. I do welcome the 
opportunity to testify today on the FAA's implementation of the 
American Recovery and Reinvestment Act, which is one of our top 
priorities. My colleagues and I up here certainly share the 
sense of urgency and purpose for the task that the President 
and Congress has set for us.
    Although the FAA's share of the Recovery Act's total of 
$48.1 billion for transportation programs is relatively modest 
at $1.3 billion, this funding will have lasting benefits for 
our Nation's aviation infrastructure. Congress appropriated 
$1.1 billion of that amount for grants to individual airport 
owners for airport development in such areas as runways, 
taxiways, aprons, airfield lighting, terminal buildings, and 
high priority safety or security equipment at the airports. The 
remaining $200 million was provided for the FAA's own 
facilities and equipment program to upgrade the FAA's power and 
navigation systems and to modernize the air traffic facilities.
    As this Committee is aware, the Recovery Act sets forward 
some very specific time lines for project completion. For FAA, 
half of the $1.1 billion made available for airport grants, 
that would be $550 million, was required to be awarded within 
120 days of that Act. That was last Wednesday, June 17th. Well, 
on behalf of the President, Secretary LaHood, and the 
hardworking FAA airport staff, I am very pleased to report that 
we not only met that milestone, we have exceeded the milestone. 
We actually have awarded over $800 million, almost 70 percent 
of the money allocated. That has already been sent out ahead of 
the deadline.
    There are an estimated 240 Recovery Act projects currently 
underway or that will be started in the next 30 days. This 
funding is going directly into the economy now and it is making 
a difference in both the short term supporting, by our 
estimates, close to 8,000 jobs, as well as in the long term 
with high value infrastructure improvements.
    The FAA's internal objective is to have at least 90 percent 
of the airport grant funding or $988 million awarded before the 
end of this fiscal year. All told, we anticipate that $1.1 
billion of the Recovery Act funding provided for airport 
development will create or sustain approximately 12,000 jobs 
over the next two years. That is supplemented by the amount of 
jobs created in our F&E area.
    We distributed the ARRA funding to airports under our 
existing allocation process and we use a National Priorities 
system to help guide our decisions. Our program requires that 
programs or projects be designated and bid before grant awards. 
While that may require some additional time for up front 
planning and bidding, this pays off ultimately because the 
project construction can begin very shortly after grant award. 
This results in planned, ready-to-go projects that have lasting 
value.
    Also in keeping with the intent of the law to create jobs 
throughout the United States, the FAA monitored the allocation 
of funds .
    Mr. Oberstar. Mr. Babbitt, can I interrupt for just a 
minute? Will the social studies class please hold for just a 
moment?
    [Laughter.]
    Mr. Oberstar. I am sorry but Mr. Mica has a visiting 
student group, a social studies class that he would like to 
introduce. They thought this was it. They thought this was 
recess. So when someone starts talking it is time to leave. But 
I want him to introduce the class.
    Mr. Mica. Well, I am sorry, Mr. Babbitt. I want these new 
important transportation officials to know that you are being 
closely observed today. There are some high paid lobbyists out 
in the audience, Mr. Chairman, and all of these Members.
    We did have attentively listening to at least the beginning 
of your opening statements the Saint James Catholic Elementary 
School students from Falls Church, Virginia. Their social 
studies teacher, Kelly Craven, used to work on the Hill. There 
she is back there. But we thank you for bringing these young 
people. We hoped you enjoyed a few minutes of this important 
testimony. You got the opportunity to see how a Congressional 
hearing is Chaired by Mr. Oberstar and the participation by 
other Members of the Committee. Thank you for being with us.
    Mr. Oberstar. And you go back knowing that your Member of 
Congress, Mr. Mica, is the senior Republican on the Committee 
and a partner in the works of all this Committee. From Saint 
James, that is so appropriate since the epistle of James is the 
epistle of works.
    [Laughter.]
    Mr. Oberstar. By your works, ye shall be saved. So you are 
here. You go back and read the epistle of Saint James and then 
relate it to what we are doing in this room, putting people to 
work.
    Mr. Mica. And if you don't study hard, we will make you 
come back here and sit through all the hearings.
    [Laughter.]
    Mr. Oberstar. Thank you very much. Class dismissed, as you 
wish.
    Now that you have regained your composure, thank you very 
much for that interruption. Please proceed.
    Mr. Babbitt. It was not a problem. I was actually looking 
forward to the increased scrutiny.
    [Laughter.]
    Mr. Babbitt. As I believe I was mentioning, in keeping with 
the intent of the law to create jobs throughout the United 
States, the FAA has monitored the allocation of this funding so 
as to attempt to reflect the historical patterns that we use 
for AIP grants. As a result, the announced projects for this 
funding are represented in all 50 States as well as Puerto 
Rico, American Samoa, Northern Mariana Islands, and Guam.
    In addition to airport grant funding, the Recovery Act also 
made available $200 million for the FAA's facilities and 
equipment program to support the FAA's infrastructure and the 
modernization and sustainment of equipment. We are putting that 
to work to replace airport control towers; to improve air route 
traffic control center buildings; to replace, improve power 
systems; and implement navigation and landing system 
components. While these projects may not be as visible to the 
public as the Airport Grant Program, they still provide a very 
important part of the functioning in FAA's operations.
    As you know, many of our facilities are showing some signs 
of age. They are in need of repair or rehabilitation. We have 
allocated this F&E funding as set out in the Recovery Act. We 
put $50 million towards our power systems at 90 different 
sites; $50 million for modernization projects at 18 enroute 
control centers; $20 million for navigation and landing 
facilities at 145 different sites; and the largest part, over 
$80 million, for the replacement of three control towers and 
the modernization of three other tower sites.
    Although the Act itself doesn't set a deadline for the F&E 
funds, we have obligated almost 25 percent of that money, close 
to $50 million, through June 17th. There are 157 different 
projects currently underway and we project an additional $30.2 
million by the end of this month. Our plan calls for 
obligations of $129 million by September 2009. We plan to have 
the entire $200 million out by July of 2010. This support on 
its own will support 2,100 new jobs.
    Now, all of these projects are work that the Agency had 
planned. That is, they were part of our corporate work plan. 
This funding allows us simply to accelerate that plan, to 
accelerate the needed improvements for our facilities or to 
start replacement projects sooner or ahead of schedule. So we 
look forward to reaping the benefits of such projects, 
including the energy efficiency that will come with it and the 
cost savings resulting from the extension of the operating life 
of our facilities.
    Finally, not only did the President and Secretary LaHood 
direct us to get this funding out into the economy to make a 
difference, to be fast and smart in their terms about our 
decisions, we also have to be accountable. So currently the FAA 
is making all of our program funding information publicly 
available by posting the information on the FAA Recovery Act 
website as updated project information becomes available for 
both airports and facilities and equipment projects. This 
information is available to the public. It includes the 
Recovery Act funds received, expended, and obligated on a 
project by project basis.
    We are stepping up our project and financial management 
oversight as well. The FAA project managers in the field are 
planning more on site inspections for the Recovery Act 
projects. It has been our experience that the most effective 
oversight comes from physical inspection of the work being done 
in the field. In addition, we are going to closely monitor the 
grant payments to ensure that Recovery Act funds are used 
appropriately. We are using some of the administrative funding 
that we were provided by the Recovery Act to hire an accounting 
firm to take a fresh look at the factors that we currently use 
to consider high risk grantees. This will help us review 
payments made to such grantees to identify and correct in real 
time any problems that we see.
    So, Mr. Chairman, the FAA is proud of what we have 
accomplished to date. We are in the midst of millions of 
dollars of bids being received daily. The bidding process is 
robust and the savings resulting from the excellent bids are 
allowing us to stretch the dollars. We are actually being able 
to undertake more projects than planned and fund more projects 
than we originally anticipated.
    We thank you for your support in this effort. We will 
continue to keep you informed on our progress. I would, of 
course, be happy to answer any questions you might have at the 
end.
    Mr. Oberstar. Thank you very much. Again, congratulations 
on your designation, on clearing the Senate, and your 
appointment.
    I wish you the same, Mr. Szabo, on being designated and 
clearing the Senate to be Administrator of the Federal Railroad 
Administration. We are glad to have you here. I know you have a 
long record of hands on experience in railroading. Welcome to 
our hearing, the first of many you will have before this 
Committee or Subcommittees.
    Mr. Szabo. Thank you, Mr. Chairman, Ranking Member Mica, 
and Members of the Committee. Certainly it is an honor to 
appear here before you today to discuss FRA's progress in 
implementing the American Recovery and Reinvestment Act.
    In addition to putting people back to work, the Recovery 
Act also sets the stage for one of the most significant new 
initiatives of President Obama, Vice President Biden, and 
Secretary LaHood. That is the development of high speed rail in 
America.
    FRA's total appropriation in fiscal year 2008 was 
approximately $1.5 billion. The Recovery Act appropriated $9.3 
billion over and above FRA's $1.7 billion appropriation for 
fiscal year 2009. Despite this significant new responsibility, 
FRA takes great pride in the fact that we have met or exceeded 
every one of the milestones set for us in the Recovery Act.
    The first significant Recovery Act milestone for FRA was 
the obligation of $1.3 billion in capital funds to Amtrak 
within 30 days of enactment. That milestone was met on March 
17th. Over and above the obligation of those funds, Amtrak has 
approved specific projects totaling some $1.1 billion. The bulk 
of the funding awaiting final approval involves security 
investments. The Department of Homeland Security is assisting 
FRA in the review of these projects. We anticipate the 
remaining projects covering the entire $1.3 billion will be 
approved within the next three weeks.
    Amtrak is now turning approved projects into orders for 
materials and supplies and is working on rebuilding its 
railroad. I note that Amtrak's President Joe Boardman is a 
witness today and so I will leave it to him to talk about the 
progress that Amtrak is making with these dollars.
    Let me now talk about the President's High Speed Inter-City 
Passenger Rail Initiative. The Obama Administration believes 
that our transportation investment strategy must address 
several strategic goals in the coming years: ensuring safe and 
efficient transportation choices, building a foundation for 
economic competitiveness, promoting energy efficiency and 
environmental quality, and supporting interconnected livable 
communities. High speed inter-city passenger rail is well 
positioned to address many of these strategic transportation 
goals. At FRA, we are on track to achieve this vision in a 
timely manner using the same build out approach that European 
countries have used.
    Through our grant guidance, which was issued on time, we 
seek to advance new express high speed corridor services at 
speeds above 150 miles per hour on dedicated track in corridors 
of 200 to 600 miles. We intend to develop a merging in regional 
high speed corridor services at speeds of 90 to 110 miles an 
hour and 110 to 10 miles per hour respectively in corridors of 
100 to 500 miles. We intend to upgrade the reliability of 
service on conventional 79 to 90 mile per hour inter-city rail 
services.
    The President's High Speed Rail Initiative is going to 
transform FRA as an agency in many ways. Historically, we have 
been a safety agency that also gave Amtrak an annual grant. Now 
we have a new mission, a new set of partners, and increased 
responsibility. Our financial assistance staff today is sized 
for that quieter era. Staff's timely response to the aggressive 
schedule in the Recovery Act is a testament to the dedication 
of that small staff. But in order to meet our growing 
responsibilities, I ask your support for the President's fiscal 
year 2010 budget that begins to address FRA's resource needs.
    I will also note that successful oversight of the 
expenditure of $8 billion will require that the amount of funds 
available for use by the Secretary in project oversight be more 
consistent with the 1 percent takedown that is historically 
authorized for grant oversight and not the one quarter of 1 
percent that is currently authorized in the Recovery Act.
    In closing, these are exciting times at FRA. Long serving 
staff there has told me that never before have they seen the 
level of Administration support for rail programs as they see 
today from the President, the Vice President, and the 
Secretary. I look forward to working with the Members of 
Congress and, in particular, working with the Members of this 
Committee to help this Nation reap the numerous benefits 
offered by high speed rail.
    I look forward to your questions.
    Mr. Oberstar. Thank you, Mr. Szabo. That is a very 
encouraging report. It is very enlightening, I must say.
    Mr. Rogoff, I am sure that side of the table is new to you.
    Mr. Rogoff. It is.
    Mr. Oberstar. Your years of service in the staff of the 
other body have steeped you in the issues of transit, 
transportation programs in general but transit in particular. 
You are more accustomed to being on the other side of the table 
preparing questions to grill witnesses. Now it is your turn to 
be grilled. Congratulations and welcome. We are glad to have 
you here.
    Mr. Rogoff. Thank you, Mr. Chairman. I am now realizing why 
they elevate the dais. I am not accustomed to looking up in 
these events and it is eye opening.
    Mr. Oberstar. I remember how it was when I was elected in 
1974 and took seat way down there. The Chairman, Bob Jones, his 
portrait is in the other room, let each of us new Members say 
something for one minute. It came to me and I said well, Mr. 
Chairman, it is a different feeling from when I had real power 
on this Committee when I was an administrator.
    [Laughter.]
    Mr. Rogoff. Thank you, Mr. Chairman. I appreciate this 
opportunity to discuss the Recovery Act.
    Before I do, I do want to take a moment on behalf of 
Secretary LaHood, myself, and the entire FTA family to express 
our condolences and mourn the tragic loss of life that resulted 
from the Washington Metro crash earlier this week. We have been 
singularly focused on that event. We have been in constant 
touch with Member Hersman at the NTSB, and I am happy to talk 
more about that in Q&A. I have also been notified that Ms. 
Norton may be calling a safety hearing. We are happy to 
participate in that as well.
    On the Recovery Act, Mr. Chairman, in the 16 weeks since 
this hallmark legislation was enacted, FTA has been working 
very hard to deliver funding to support the economic recovery. 
Today I want to share with the Committee some of our 
accomplishments and how Transit has helped local communities, 
large and small.
    The Recovery Act made available for public transportation 
$8.4 billion. We view that as an extraordinary opportunity. 
Unlike some of our modal partners here at the table whose 
Recovery efforts are centered around one or two large formula 
or discretionary programs, FTA is standing up six separate 
programs. We have three formula programs and three 
discretionary programs, including one discretionary program 
that is brand new that was effectively authorized in the 
Recovery Act itself. These six programs together will serve no 
fewer than 695 grantees with the potential of over 1,300 
separate Recovery Act grants.
    These grantees, as is true of the entire transit industry, 
exhibit drastically different levels of financial strength, 
technological sophistication, and staffing capacity. They range 
from the largest rail systems that serve more passengers 
annually than Amtrak to our smallest rural transit providers 
that may deploy a fleet of just three or four minivans.
    By way of example, the Florida DOT plans to use its 
Recovery Act funds to relocate and construct a new Greyhound 
facility at the Miami intermodal center which will provide 
important intercity connections and improvements to safety, the 
environment, as well as economic benefits. By contrast, in 
Aiken, South Carolina, the lower Savannah Council of 
Governments plans to support its ``United We Ride Mobility for 
All Americans'' Initiative by using Recovery Act funds to build 
a new facility that will house its travel management 
coordination center. This is the kind of project that is really 
focused on rural residents and the elderly, helping them get to 
medical appointments and elsewhere.
    Really, given the daunting challenge of reaching all those 
grantees, we have been using every tool in our arsenal to reach 
each and every grantee and put the Recovery Act funds to work. 
We are using our website, Agency guidance, webinars, regional 
training of grantees, and regional training of FTA staff. 
Sometimes we just get on the phone and walk our grantees 
through the process, step by step, by step, because that is 
what is necessary. In that regard, Mr. Chairman, I can't 
overstate how proud I am of the extremely hard work of the FTA 
staff in putting this money to work, especially in our 10 
regional offices spread around the country. They have been 
working morning, noon, and night to reach our grantees and make 
sure that these dollars are being put to work promptly.
    This constant collaboration between FTA and transit 
providers has been instrumental in keeping our implementation 
on track. Of the $8.34 billion of Recovery Act funding provided 
to the FTA, $1.74 billion or 21 percent has been obligated so 
far and another $4.1 billion or 50 percent are in process for 
obligation in the near term. I was informed as I was coming 
over here that we are hopeful of obligating another couple 
hundred million dollars just today. These figures equate to 
about 19,000 jobs currently obligated and another 45,000 jobs 
for the grants in process.
    In addition, $55 million in Recovery Act funds have been 
transferred from the Federal Highway Administration to FTA for 
public transportation projects. These transfers reflect local 
decisions by States and municipalities to use Recovery Act 
highway funds for transit projects instead.
    FTA estimates, based on the grants that are currently in 
process, that approximately 4,000 new transit vehicles will be 
purchased or on order by this September. All these vehicles 
will comply with the Buy American Act. These vehicle purchases 
will also serve as an important shot in the arm for our 
manufacturing sector. In fact, Minnesota is a very good 
example. In that case, the Metropolitan Council in Minneapolis 
has requested just short of $50 million in Recovery Act funds 
to purchase 31 standard 40-foot buses, 30 hybrid buses, 26 
articulated buses, and 16 small 30-foot buses. Similarly, LYNX 
in Orlando, Florida has requested Recovery Act funds to buy 61 
buses at a cost of $8.6 million.
    I think that is part of what is missed. You talked, Mr. 
Chairman, about the sand and gravel folks calling people back 
to work. We have a situation where we have bus manufacturing 
lines that are hot and are staying hot knowing that these 
grants are coming, knowing that the orders are coming. When we 
purchase a bus, we don't ask the grantee to give all the money 
up front. They outlay the money to the grantee when the bus is 
delivered. That is not to say that people aren't working on 
that manufacturing line. The outlays come when the bus is 
delivered. So I think that is an important point on the overall 
issue of outlays.
    The only thing I would add, Mr. Chairman, is that 
consistent with your guidance on reporting requirements, we are 
adhering to each and every element of both the letter and 
spirit of that law. We have a good system in place. We feel 
that the grantees are cooperating. Like I said, they have 
various levels of sophistication but where they are confused, 
we are helping them. So I think we are on track.
    Thank you very much.
    Mr. Oberstar. Thank you. That is an excellent report, very 
uplifting. I will return to the subject of the process in the 
time reserved for questioning.
    Mr. Paniati is the Acting Deputy Administrator of the 
Federal Highway Administration.
    Mr. Paniati. Chairman Oberstar, Ranking Member Mica and 
Members of the Committee, thank you for the opportunity to 
discuss the Federal Highway Administration's progress in 
implementing the Recovery Act.
    Through the Recovery Act, FHWA is playing a key role in 
creating jobs. The Administration estimates the highway portion 
alone of the Recovery Act will create or sustain close to 
300,000 jobs by 2012. It is providing a lifeline for Americans 
who work in construction and have been especially hard hit by 
the recession.
    On March 3rd, President Obama and Vice President Biden 
joined Secretary LaHood at DOT to announce that $26.6 billion 
was available to States for highway investment. Within hours of 
the President's announcement, FHWA began to approve projects. 
As of yesterday, FHWA division offices have authorized more 
than 5,000 projects in all 50 States, D.C., and the territories 
for a total of $15.7 billion. That represents 59 percent of 
total funds available.
    I am proud to say this would not have happened without the 
strong commitment of FHWA employees, who have worked hard for 
many months, even before the Act was passed, to ensure that we 
would be ready to implement the legislation swiftly and 
efficiently.
    In passing the Recovery Act, Congress emphasized the need 
to rapidly infuse these funds into the economy, requiring that 
50 percent of the funds apportioned to a State must be 
obligated under a project agreement by June 29th. I am very 
pleased to report that all States have met the target at least 
10 days in advance of the deadline, as the Administration will 
announce today. We are also hearing good news from States that 
projects are running ahead of schedule and under budget. By 
stretching Recovery Act dollars, States are able to complete 
additional projects and create even more jobs.
    Project approvals are only part of the story. We need to 
get projects underway to put people back to work. As of June 
19th, there are more than 1,500 highway projects underway in 45 
States, D.C., and on Federal lands utilizing more than $5 
billion in Recovery Act funds. We estimate that these projects 
alone will yield over 50,000 jobs.
    FHWA is distributing $550 million for roads on Federal and 
tribal lands. This funding is creating jobs and improving 
access to our national treasures. For instance, we have 
advanced projects such as the reconstruction of the Going to 
the Sun Road in Montana's Glacier National Park and the 
rehabilitation of roadways within Yosemite National Park in 
California.
    The Recovery Act is working for America. Every new project 
we obligate is a signal for States to advertise contracts, and 
for contractors to begin hiring workers and ordering materials 
like steel, asphalt, and concrete. We are making investments in 
projects that will save lives. We are making investments in our 
highway system that will help it operate more efficiently and 
effectively, while moving the people and goods we need to keep 
the economy healthy.
    It is not only important to get the money out quickly, we 
must get it out in the right way. The Agency continues to focus 
on reporting and management of the risks associated with such a 
large investment of dollars in transportation. The public needs 
to know what their money is buying, and the FHWA has moved 
forward aggressively to fulfill the President's commitment to 
transparency and accountability. Our Recovery Act progress is 
on the front page of our website and is updated every day, and 
we are providing detailed reports through recovery.gov.
    To guide our oversight, we are employing extensive risk 
management strategies at the local, State, and national levels 
including communication and education efforts, and our Division 
Offices and National Review Teams are providing oversight. We 
are monitoring progress and risks by analyzing data we have 
received to identify trends or problem areas, and we making 
real time corrections as needed.
    Successful deployment of highway dollars under the Recovery 
Act will remain a top priority at FHWA as we continue to work 
to deliver Recovery Act funds and get America's economy moving 
again.
    Mr. Chairman, this concludes my remarks. I will be happy to 
answer your questions.
    Mr. Oberstar. Thank you very much for that wealth of 
detail. I appreciate your presentation.
    Now we have Mr. Boardman.
    Mr. Boardman. Thank you, Mr. Chairman. Good morning to you 
and to all the Members. Thank you for the invitation to testify 
to the Committee.
    The company is in motion. Work is underway not only in the 
vast task of organization and oversight but in both internal 
and external projects that will ultimately modernize and 
transform the Amtrak system. We have been working closely with 
the Federal Railroad Administration and, as the Administrator 
said, they have approved about 90 percent of the projects of 
our $1.3 billion slate. About 10 percent of the total is yet 
unapproved as those are security and safety projects that also 
require the approval of the Department of Homeland Security. We 
have awarded about $41 million of the $1.3 billion that we have 
received from the ARRA funding. I expect our spend rate will 
increase significantly in the coming months and we are 
preparing for that.
    We all know this is a complex and challenging process but I 
am convinced that the RFI/RFP process does a good job of 
protecting the taxpayers' investment. Those proceedings are 
deliberate and they are designed to be deliberate.
    We are soliciting letters of interest from contractors for 
fixing bridges, as we discussed in April. Major projects that 
are in the request proposal stage of the contracting process 
include several of the major tunnel, fire, and life safety 
programs in New York as we also discussed in April. During the 
next 90 days, we expect to award $190 million worth of projects 
that will be managed directly by the Amtrak staff. Among the 
latter are improvements to the fire standpipe systems in those 
tunnels and Positive Train Control.
    Since our hearing on April 29th, work has advanced on two 
of the major projects we discussed last time around, the 
Wilmington and the Sanford stations. We broke ground at Sanford 
about two weeks after the last hearing and Ranking Member Mica 
joined us to celebrate the complete renovation of the southern 
terminal of our very successful and popular Auto Train service.
    Projects that can be advanced with our own workforce are 
another area where we are making real progress. We have added 
222 employees to our engineering force to deal with ARRA 
related expansion and right of way work on the Northeast 
Corridor that begins next month. This will include projects 
such as ditch and drainage improvements retaining wall 
upgrades; and improvements in design to better the integrity of 
the road bed along nearly 230 miles of the New York, Mid-
Atlantic, and New England divisions.
    Similarly, we are making good progress in our $100 million 
equipment plan. We do most of this work in house with an Amtrak 
workforce. We have also existing agreements in inventory levels 
for parts. In some cases, progress is still subject to the 
ability of suppliers to get us needed components but, we are 
moving ahead. ARRA funding has allowed us to add 52 mechanical 
employees at our Bear, Delaware facility and another 108 
employees at our back shop in Beech Grove, Indiana. I expect 
the workforce at these two facilities will be returning the 
first of the Amfleet cars to service in the middle of July and 
the first of the Superliners by the end of July.
    At the end of July we intend to award the contract for a 
team of regional project managers who will manage a slate of 
394 projects with a total dollar value of $636 million across 
the Country. Many of these projects will be relatively small 
and will be excellent candidates for small business set asides. 
The regional project managers will oversee this effort and our 
expectation is that they will achieve the goals of extending 
our outreach and relationships with small businesses and 
disadvantaged business enterprises.
    We have built a procurement website, 
procurement.amtrak.com, where we advertise Stimulus project 
opportunities.
    I should note that some of the $1.3 billion that Amtrak is 
investing will lay critical groundwork and provide long term 
benefits for the development of high speed rail. For example, 
we are investing $10 million in Positive Train Control on our 
Michigan line. There are a couple of corridors that are ready 
to go. Congress and the Administration have challenged us not 
just to get the work done but to produce measurable results. 
That is a real challenge and we are going to do our part to 
advance it. Nobody out there knows as much about making high 
speed service a reality under North American conditions as we 
do. I think the men and women of Amtrak have earned the chance 
that we now have, the chance to help bring the next big 
improvement in rail service.
    I learned on my recent 9,000 mile trip on Amtrak trains 
that Amtrak is unique. We are both a company and a mode of 
travel. I often found that much of the latent desire and hope 
people feel for passenger service is vested in Amtrak. They are 
willing to go a long way to help out in rehabilitating stations 
and providing hosts at many of our stations to help travelers. 
As enthusiastic as the people who have train service are, I 
found the people who don't have service but want it are even 
more enthusiastic and hopeful. They are tireless advocates and 
they are a real inspiration.
    The transformational vision for passenger rail service in 
the United States takes teamwork and focus from all. We pledge 
to work with all who want to improve passenger rail. We thank 
this Committee for their support.
    Mr. Oberstar. Thank you very much, Mr. Boardman. That is a 
very encouraging report as well. Clearly there is a great deal 
of progress being made. You have laid out an excellent agenda 
of actions already taken, those that are underway, and those 
planned.
    I am glad you had the groundbreaking for the Auto Train 
terminal. Some 20 plus years ago, my late wife, our children, 
and I took that trip. I think we were some of the first ones to 
ride in the first month or so, to ride the Auto Train to 
Florida. It is quite an impressive experience to see the cars 
rolling off the trains. You get out and drive on to your next 
destination. It is good to see that it has been so successful 
that it needs renovation. I am glad Mr. Mica was there to 
participate in that event.
    You mentioned Positive Train Control, investing some $10 
million in PTC. That is under the Recovery Act money?
    Mr. Boardman. Yes, sir.
    Mr. Oberstar. Could you list for us the company or 
companies that are producing the PTC technology? How many jobs 
are resulting from that work?
    Mr. Boardman. In that specific area regarding PTC, I may 
not be able to give you the number of jobs. The total amount 
when we put this together, the first year was going to be 4,600 
jobs for all of what we were going to do the first year. The 
total for the whole package in two years was 8,000 jobs. So I 
don't have it broken down that way today but we can provide 
that to you.
    On the Positive Train Control, we are doing about three 
different things here. One is that we are extending our ACSES 
system, which is the Advanced Civil Speed Enforcement Train 
Control, that exists already on the Northeast Corridor. Another 
is that we are expanding the ITCS structure on the Michigan 
line. We also did a system with Illinois and with Lockheed 
Martin. Then there will be a platform that will be GPS-based, 
for which there are a couple of different suppliers, one of 
them being WabTec. We are working with all the freight 
railroads to make sure that we have interoperability between 
them and us.
    Mr. Oberstar. I asked the question because it is important 
in the total accounting of jobs created by this investment. It 
is important to follow the line of the supply chain back from 
the job site because those are jobs that didn't exist either 
before this Recovery funding.
    I recall so well just a month after the President signed 
the Recovery Act a young civil engineer from my home town 
Chisholm, he had moved away on and off to get his degree in 
engineering and found work with a civil engineering company 
doing highway design work, he came into the office here to see 
me. He said I want to thank you and the Congress and the 
President because I am back at work. I had been working for a 
year with this company but was laid off when the recession took 
hold. But now, before any projects are underway, the company 
called me back. They said we know we are going to have a number 
of projects to bid on and we need to put you to work. Well, it 
just turned out he had a week's vacation time coming after 
being back on the job so he took his wife out to Washington.
    That is being repeated all over the Country. I want those 
jobs accounted for as well. We know that you are going to do 
that.
    This is, Mr. Paniati, what I was talking about. This is the 
flash drive. It is a little computer device. It is about the 
size of my thumb. It just fits into your computer. I won't bore 
anybody by calling it all up on the screen but this is what it 
produces.
    This is what the State of Minnesota uses. In the field, the 
County Engineer gathers information, enters it on his computer, 
and sends it in to the State DOT instantaneously. The State DOT 
then sends that information each month in to the U.S. DOT 
Federal Highway Administration and to our Committee. So we are 
getting all this information. Here it is, pages and pages of 
documentation: projects in construction, construction status, 
projects in planning and their location, county State road, 
county State highway 10, and what is underway at the time.
    So when I hear complaints that there is such a burden of 
paperwork, I just want to repeat that I have no patience for 
those who have been given hundreds of millions of dollars at 
100 percent Federal funding to put people to work. They 
complain about paperwork? Baloney. It is electronic work. If 
that is burdensome then those complainers need to get a number 
two shovel in their hands, go out on a job site, start 
shoveling, and get a callous on their hands instead of a 
complaint in their outbox. I have no patience for that at all.
    Just briefly, Administrator Rogoff, describe step by step 
the process from notification from Office of Management and 
Budget to DOT, from DOT to the Federal Transit Administration, 
and thereon through. You described a little part of that 
process. You said the outlay occurs when money is transferred 
to the grantee when the bus is delivered. That is the point of 
outlay but the process is already started. So I want you to 
walk us through the procedure that is followed. Step one?
    Mr. Rogoff. Specifically for vehicle purchase, since that 
is what I focused on in that instance, a grantee will come 
forward.
    Mr. Oberstar. A grantee being who?
    Mr. Rogoff. A grantee being a transit agency, urbanized or 
non-urbanized, and in some cases a State applicant who is 
applying for a universe of rural providers. They alert us that 
their program of projects will include vehicle purchases. We go 
ahead and approve that grant. At that point, when we approve 
the grant, it is obligated.
    Mr. Oberstar. So you set aside some millions of dollars?
    Mr. Rogoff. Right, we reserve the funds in our system. We 
have an automated system known as T.E.A.M. It is a computerized 
system and the grantees communicate with us through that 
system. We reserve the dollars.
    Mr. Oberstar. What determines when the transit agency has 
in effect received the funds?
    Mr. Rogoff. When we obligate it they have a green light to 
sign a contract.
    Mr. Oberstar. Yes, okay.
    Mr. Rogoff. They sign a contract either on behalf of their 
own transit agency or, in some areas where we have a great deal 
of success in getting economies of scale for our transit 
agencies, they might team with other transit agencies for a 
bigger bus buy. They reach a contract with that bus provider. 
That bus provider goes about the business of manufacturing 
those buses. But as I am sure you can appreciate, Mr. Chairman, 
we don't want them to pay the manufacturer until they take 
delivery of that bus, have tested that bus, and know that that 
bus is compliant with every element of the contract. Only when 
they take delivery of that bus and pay the contractor the 
progress payments on the manufacture of that bus, only then 
does it come through to our system as an ``outlay''. So it 
really is at the end of the system, at the end of the chain 
that we actually incur an outlay for a bus purchase.
    I think in Mr. Paniati's instance it is even more notable 
because his program, as you pointed out in your opening 
statement, is done on reimbursement. The outlays actually occur 
at the very end of the construction process. But I will let him 
speak to that.
    Mr. Oberstar. Well, we will come to that in a moment. I 
want to withhold my further questions at this point and go to 
Mr. Boozman. Thank you for taking the position of Ranking 
Member as Mr. Mica went off to other duties.
    Mr. Boozman. Thank you, Mr. Chairman. Mr. LoBiondo is like 
the rest of us. He has got three places that he needs to be so 
I will yield to him at this time.
    Mr. LoBiondo. Thank you, Mr. Boozman, very much. Mr. 
Oberstar, thank you for holding this hearing. To our 
distinguished panel, I thank you for the work you are doing. In 
particular, Mr. Babbitt, congratulations on your confirmation. 
I certainly look forward to meeting with you in the near future 
and working with you very closely with our FAA technical 
center.
    I have a question for you, Mr. Babbitt. You talked about 
$200 million in the F&E account, that it was going to go to 
three towers and 18 different centers, I believe. Would you be 
able to, if not today, at some point let us know who is on that 
list? I would be curious to know who is going to be receiving 
that funding. Very specifically, of course, I have an interest 
in our FAA technical center at the Atlantic City Airport. Mr. 
Oberstar knows I am very fond of saying that is the premier 
facility in the world for aviation research and development for 
safety and security. I am just curious whether they might be in 
line for any rehabilitation funding for the laboratories or any 
of the other facilities there.
    Mr. Babbitt. First, thank you for the congratulations. I 
look forward to working with you as well.
    Candidly, I don't know the specific breakdown but I 
certainly can get that information to you. I share your view on 
the Technical Center. I have recently visited one of our 
technical centers. We are going to be calling on them for some 
of the advancements we are making right now. We have a lot of 
new technology that we are trying to deploy and the Technical 
Center is the birthplace of much of that technology. So I share 
your view and I will certainly get you that information. [The 
referenced information follows:]

[GRAPHIC] [TIFF OMITTED] T0765.079

    Mr. LoBiondo. Okay. I appreciate your getting back to me. 
Again, I look forward to working with you. Thank you, Mr. 
Boozman. Thank you, Mr. Oberstar.
    Mr. Oberstar. Thank you, Mr. LoBiondo. We will now to go 
Mr. DeFazio, Chair of our Transit and Highway Subcommittee.
    Mr. DeFazio. Mr. Chairman, I do have questions but since I 
am going to assume the chair when you leave in a little bit, I 
would defer to other Members and then I will take my time.
    Mr. Oberstar. We will go to Ms. Brown.
    Ms. Brown of Florida. Thank you, Mr. Chairman. Thank you 
for holding this hearing. You know, I voted for the Stimulus 
and I think the accountability is a major part as we move 
forward with this and the transportation bill.
    I have a question for Mr. Boardman. Mr. Boardman, first of 
all I want to thank you for the leadership that you have 
provided in Amtrak. Certainly I was at the announcement when we 
announced the Sanford project and the Wilmington project. I 
think that came to a total of $25 million. To date, we have 
announced a total of $41 million. We have another $16 million 
in that pot and then we are looking at another 190 projects. 
You know, Amtrak has for eight years struggled with zero 
funding. Now we have finally got the funds, and I know you have 
got to handle it in a proper manner, but can you give us a 
status report as to how Amtrak has been able to use those 
additional Stimulus dollars?
    Mr. Boardman. Certainly, Congresswoman. I appreciate your 
support and your kind comments.
    One of the things that we are doing right now is a lot of 
the work in house. I reported a little while ago how many 
additional jobs we have applied to our Bear facility and our 
facility at Beech Grove in Indiana. There are about 108 jobs 
there. We expect to start producing the cars actually out of 
there mid July.
    So many of those dollars are actually, and the Chairman 
talked about this a little bit earlier, some of them now are 
not charged back yet. So there are actually more dollars out 
there that are in the works but people have not charged us back 
for the parts and so on and so forth.
    Some of the big projects like the Niantic Bridge, which is 
a $100 million project, is coming online relatively soon. 
Within the next 90 days or so we see about another $190 million 
worth of projects. At the same time we have a lot of very small 
projects across the Country that we need specific management 
of, over $600 million worth of those small projects. We have a 
list of those all on our website. Many of them have to do with 
stations and improvements under ADA. Many of them are going to 
make it much easier for our customers to use the service.
    So you are going to see that spend out much more rapidly in 
the next several months.
    Ms. Brown of Florida. Thank you. Mr. Chairman, I want to 
mention the fact that at that Beech Grove repair facility, if 
it wasn't for the Chairman and working with the Member from 
that area, we were talking about doing a major downsizing and 
sending the people to Delaware. Now, you know, that we have 
gotten the funds we are fixing up that facility. So we did our 
job. I really think that is the way it should work.
    Mr. Boardman. Yes, ma'am.
    Ms. Brown of Florida. Thank you very much. I yield back the 
balance of my time.
    Mr. Oberstar. Mr. Boozman, you now get your time.
    Mr. Boozman. Thank you, Mr. Chairman. Mr. Paniati, in your 
testimony you said that the maintenance of effort by the States 
was proving to be a challenge. How will DOT ensure that States 
are continuing to use the Recovery Act's money that they are 
getting to supplement rather than supplant planned State 
expenditures that were going to be done anyway?
    Mr. Paniati. The maintenance of effort provision is one 
that the State DOTs were not used to. In their first response 
to providing the certification on the maintenance of effort, we 
received a variety of responses, some with contingencies on 
them and other qualifications that we did not feel complied 
with the law. The Secretary made the determination to go back 
out and offer additional guidance to each of the States and a 
request for them to reevaluate and resubmit their 
certifications. We received conforming certifications back from 
all but one State.
    Just recently, we issued guidance to our State divisions to 
go and sit down with each of the State DOTs to review with the 
State how they computed the numbers that are in the 
certification to make sure we are comfortable with the 
computation. We will be getting regular reports from each State 
on the maintenance of effort as time goes by. Our goal is to 
ensure an equitable and level playing field so that when we get 
to the point of August redistribution in 2011, which is the 
outcome, that we are able to say whether a State has met its 
maintenance of effort or not, and determine whether it will 
share in that August redistribution or not.
    Mr. Boozman. Very good. I appreciate you all. I know that 
you are working very, very hard to get the money out and to 
make sure that it is spent in the appropriate way. In my 
district and I think in every Member's district, in fact I 
think every elected official right now, every day that they get 
up they need to think how can I create jobs, how can I protect 
pension plans, and things like that. In the Commission that was 
done where people worked so hard, they told us that the average 
road project was eight to ten years, something like that. So I 
know that it is a tremendous challenge.
    In the start of your testimony you talked about creating or 
saving jobs. Right now the unemployment rate is continuing to 
creep and is at a very, very serious situation. How do you 
differentiate? What does creating or saving mean?
    Mr. Paniati. Right now our focus is just on getting people 
to work without really focusing on the differentiation. We are 
really focused on how many people are at work on Federal-aid 
highway projects. So our most recent information, which was 
through May, indicated that, in May, we had close to 5,000 full 
time equivalent jobs underway. That represented a 400 percent 
increase over the data from March and April. These are well 
paying jobs, with an average $35 an hour wage as compared to 
$15.50 in the general economy.
    But the thing that really gives us comfort that a lot more 
jobs are coming is the fact that the 1,500 projects that are 
underway account for only about a third of the money that has 
been obligated to date. Those projects will ultimately yield 
some 50,000 jobs at the site and as the workers spend their 
wages. Those jobs are going to be ramping up very quickly as we 
get deeper into the summer months as construction on those 
projects ramps up.
    Mr. Boozman. Thank you. I have one more thing, Mr. Babbitt. 
The Recovery bill provided FAA with $2 million to hire 
additional staff to award grants and provide grant oversight. 
How is that going? Have you spent the money? Have we ramped up 
in that regard?
    Mr. Babbitt. Yes, sir. I can get you greater detail but we 
have begun deploying that. We are looking at several things, 
one of which is some sophisticated ways that you can look at 
higher risk projects and analyze that risk for better 
oversight. So that is where we have put some of the money. My 
understanding is we have about half of it engaged already and 
are looking to deploy the rest of it as these projects go 
forward. But I can get you very detailed information on the 
exact projects and the exact allocations.
    [The referenced information follows:]
    [GRAPHIC] [TIFF OMITTED] T0765.080
    
    Mr. Boozman. That would be helpful. Thank you, Mr. 
Chairman.
    Mr. Oberstar. Mr. Boozman, your question about jobs created 
versus jobs saved, that is an accounting that we will 
specifically receive in the next 30 day report. We thought 
initially in this second report that the various modal 
Administrations would be able to report on those job figures 
but it turned out to be a little more difficult to gather the 
information because of the lag in the time in reporting in. But 
this little flash drive is now at work. The information will be 
available and in our July hearing we will get those figures. We 
will make sure that your point, which is also my concern, is 
adequately answered.
    Mr. Boozman. Very good, Mr. Chairman. I think it is a 
challenge to get good information in that regard. Then the 
other challenge is to make sure that the projects that are 
being done are not projects that would have already been slated 
to get done but are additional projects.
    Mr. Oberstar. The Recovery Act language from our Committee 
was very specific that the Recovery Act funds, which are 100 
percent funding, should be in addition to the program of 
projects the States had committed to undertake prior to 
enactment of the Recovery Act. We surveyed all State DOTs in 
December of 2008 and again in January of this year for a 
listing of projects that the State DOTs said would meet the 
qualifications: designed, engineered, EIS completed, right of 
way acquired, down to final design and engineering, and all 
that is lacking is the money. Through AASHTO, they gave our 
Committee, shared on both sides, that information. Then we said 
the Governor must sign off on two documents, the document of 
the program of projects to be carried out under the 80/20 
program and the program of projects to be carried out under the 
100 percent Recovery Act funds. The same was true with the 
transit agencies.
    We don't want job substitution. We don't want project 
substitution. It is just going to be net new jobs created. In 
our reporting we are watching very carefully. We will have more 
complete information or more advanced information in our next 
reporting period. But we are very alert to that issue.
    We also want to know, and I have heard from some Members, 
that there are some States in which the projects aren't being 
equitably distributed. We want to know that as well.
    Mr. Michaud, Mr. Maine, the voice of Maine?
    Mr. Michaud. Thank you very much. Thank you, Mr. Chairman. 
I really appreciate your leadership with this Committee and 
what you are doing.
    I am pleased to let you know, Mr. Chairman, that the 
Governor mentioned this Wednesday that Maine has committed 100 
percent of the bridge and highway projects. So those other 
States who were complaining about the cumbersome paperwork, I 
am sure we would be willing to take that money and put it to 
good use in the State of Maine.
    I have a question for Mr. Paniati.
    Mr. Oberstar. May I interrupt the gentleman?
    Mr. Michaud. Yes.
    Mr. Oberstar. That is a provision of the Act, by the way. 
If States don't use their funds in the 90 days, if they don't 
commit it, they don't obligate the money, they don't have it 
under contract, they can lose it to States that are ready. I 
just want to reinforce that.
    Mr. Michaud. We are ready to go.
    My question to Mr. Paniati is, and I will quote your 
comments, and I am very pleased to see in your testimony how 
enthusiastic you are on the Recovery and Reinvestment Act, you 
had mentioned that the Act is an ``unprecedented effort to jump 
start our economy, create and save millions of jobs, and put a 
down payment on addressing long neglected challenges so our 
Country can thrive in the 21st century.''
    You also went on to say, ``The Recovery Act has energized 
working people and companies of all sizes. It is a lifeline for 
Americans who work in construction and have been especially 
hard hit by the recession. Overall, the Administration 
estimates the highway portion of the loan of the Recovery Act 
will eventually create or sustain close to 300,000 jobs by 
2010.''
    Throughout your testimony, you really talk about the 
Recovery Act and how important it is. I really believe that you 
really mean what you say in your testimony. I guess my question 
then is if in fact that you are so enthusiastic about how great 
the Recovery Act is and what it is doing for our Country, have 
you or the Secretary talked to the Economic Advisory Council on 
why if this is so great why they are encouraging Congress to 
hold off on the highway bill for another 18 months?
    Mr. Paniati. I have not talked to the Council of Economic 
Advisors on that. I am sure that the Secretary has. We 
obviously have a very close and near term challenge with the 
Highway Trust Fund. If action is not taken, our current 
projections indicate that, by the end of August or early 
September, we will not be able to sustain the payments in the 
normal manner. So obviously action is important and needed 
soon.
    The Secretary and the Administration believe that it is 
important in taking that action to take a comprehensive and a 
fully developed look. The Administration is working closely 
with the Members here in developing that approach to 
reauthorization. I think they believe that taking the time in 
the 18 months to deal with both the initial crisis and to 
develop that comprehensive approach is the most appropriate way 
to proceed.
    Mr. Michaud. Mr. Chairman, if I might continue? Probably 
not for this hearing, and I know we are talking about jobs and 
what the Recovery Act has been doing for this great Country, 
but I would like to know if you can provide at a later time, 
with the inaction of dealing with the authorization bill, what 
negative effect that is going to have on the economy. It 
definitely will have a negative effect, looking at your 
positive statement on the money and the jobs that this Recovery 
Act is doing. So with the inaction and lack of leadership on 
behalf of the Administration when you look at the 
authorization, I would like to know the negative effect that it 
is going to have the longer we put off enacting the 
authorization. I know you can't answer that question today but 
I want to know what negative effect it will have if we delay 
action, especially for the 18 months that you are talking 
about. If you can provide that to the Committee, I would 
appreciate it.
    [The referenced information follows:]

    [GRAPHIC] [TIFF OMITTED] T0765.081
    
    With that, Mr. Chairman, I want to thank you and the 
Ranking Member once again for your proactive way that you are 
dealing with our infrastructure needs in this Country. I look 
forward to working with you as we move forward not only on the 
economic Recovery Act but also moving forward the really 
progressive highway authorization bill that you and the Ranking 
Member have put forward. So with that I yield back, Mr. 
Chairman.
    Mr. Oberstar. Thank you very much, Mr. Michaud, for those 
comments and for that very important question. If Mr. Paniati 
and the Administration can't answer it, we have an awful lot of 
other folks who can.
    The key element to keep in mind is that as the Recovery Act 
Stimulus winds down next summer or fall, the Trust Fund will be 
at its lowest ebb. There will be no reauthorization under the 
Administration proposal. The effect of Stimulus will be gone 
and the existing law, under their plan, would stay in effect. 
That means funding at a substantially lower level than was 
authorized in the 2005 bill. The economy will suffer very 
severe job loss as well as not enjoying the benefit of the six 
million jobs to be created over the six years of our Committee 
bill.
    Mr. Rogoff. Mr. Chairman, could I speak to that for a 
minute? The Transit program is also authorized under that bill. 
I think it is important to point out that the President is 
singularly focused on the economic recovery. Probably the 
greatest danger looming that could really stall the economic 
recovery is, as Jeff pointed out, the imminent bankruptcy of 
the Trust Fund. That is not going to happen in October; that is 
going to happen this August.
    Mr. Oberstar. The last week of August.
    Mr. Rogoff. What the President has put forward is a plan to 
get us past that crisis. Deputy Secretary Porcari just 
yesterday was required to send a letter out to every State DOT 
warning them of the bankruptcy in late August. Under the prior 
Administration, those letters did not go out. State DOTs were 
caught unaware. If we want to worry about the States slowing 
their spending, we need to think about the impact of this 
letter. That is why, as part of the same program, the President 
has put forward an 18-month extension that also brings with it 
$20 billion to get us over the hump.
    Now in fairness, the President's budget for 2010 has an 
uptick in funding for transit and an uptick in funding for 
highways, albeit more from the general fund than the Trust 
Fund, in order to deal with the near term Trust Fund problem. 
But we don't see ourselves falling off a cliff in October. The 
President's budget provides increased funds both for highways 
and transit beginning in October. He is putting forward a 
program to get us over the crisis in August which is the near-
term crisis we all need to worry about.
    Mr. Oberstar. We understand. You are a good soldier.
    [Laughter.]
    Mr. Rogoff. Thank you.
    Mr. Oberstar. I have already talked about that this morning 
to another group. We understand very well that at the end of 
August there will be $2.3 billion in requests from the States 
for vouchers to be filled, not under the Stimulus program but 
under the regular 80/20 program, and there will be $1.6 billion 
in revenues against which to pay those bills. There will be a 
$600 million shortfall. We understand that. We understand that 
by September 11th the requests will remain at $2.3 billion and 
the revenue available in the Trust Fund to be disbursed by 
Treasury will be $1.6 billion. It will be even less than at the 
end of August. I understand that.
    That is why we moved yesterday in this Committee on a new 
authorization. That is why we will be moving in July with the 
Ways and Means Committee on the funding mechanisms. That is why 
Mr. DeFazio, Mr. Mica, Mr. Duncan, all the Members of the 
Committee on both sides, and I have been working so hard on a 
new program not just for the next two months, not just until 
the end of this fiscal year, not just for filling the hole in 
the Trust Fund, but for six years to create six million jobs.
    We have had no outreach from the Administration, no 
participation, and no discussion. I am personally offended by 
that.
    Mr. Diaz-Balart?
    Mr. Diaz-Balart. Thank you, Mr. Chairman. It goes without 
saying that you have, and I think I can speak for the entire 
Committee, the support of the entire Committee. As we have said 
many, many times, we may disagree on some specifics but there 
is no doubt where we need to go. I think it is important to 
make that clear.
    I want to also commend the gentleman from Maine because I 
think he brought up a very, very important point. Look, I don't 
want to be the one who throws a bucket of cold water, even 
though it is pretty evident that I am not the first, but with 
the exception of the Stimulus money spent on transportation, 
the Stimulus has been a flop. Don't take my word for it. Look 
around you. Just look around you.
    Florida's unemployment rate is 10.2 percent. Can anybody 
tell me that is a good thing or be happy with that? The 
President's own economic advisors, according to their numbers, 
unemployment is higher now then if Congress had taken 
absolutely no action. Those are not my numbers. They are from 
the President's own economic advisors. On June 14th, the Vice 
President himself on Meet the Press said that everyone guessed 
wrong on the impact of the economic Stimulus.
    The exception to that, I think, is money being spent on 
infrastructure. Part of the reason probably is because only 7 
percent or less of the money went for transportation 
infrastructure. I may have my differences with the Chairman of 
this Committee but I admire him because at the time he was 
fighting for more funding for infrastructure. There is no 
doubt, I think, in most of our minds that that would have had a 
great impact, a very positive impact, and that it would have 
created a lot more jobs frankly for a lot less money. But we 
are where we are.
    I bring that up, though, because with a letter or without a 
letter, I think the State DOTs knew where the situation was, 
with all due respect. At least Florida's did. I appreciate the 
letter. I think it is good but I don't think that was 
rediscovering the Mediterranean.
    With that in mind, I do want to tell you that I dropped the 
bill. I am sponsoring a bill with it. I have already filed. It 
basically would rescind the unspent non-transportation American 
Recovery funds and put them in the Highway Trust Fund. It would 
create jobs and prepare this Country for long term economic 
stability. It would deal with the short term deficit and also 
with the longer term deficit. I just want to bring that out 
there because that is an area that we all agree on, that 
infrastructure is something we have to do and that it is 
something that is working. I want to thank all of you for the 
job that you are doing on that.
    More importantly, Mr. Chairman, I need to thank you. Again, 
we may have some differences but you have been steadfast not 
only fighting for more money for transportation infrastructure 
but also doing everything in your power through this Committee 
to make sure the money is well spent. That is why we are here 
today. Again, we may have our differences from time to time but 
I want to make sure that everybody understands that this 
Committee is united.
    I just want to thank you, sir, for your efforts not only in 
fighting for the funding, not only in working on a bill that 
you have worked on day in and day out, and you have listened to 
everybody on this Committee, every single Member of this 
Committee, but also making sure that the money that has already 
gone out there is well spent. Obviously in this day and age, 
particularly when the situation is so difficult because people 
continue to lose their jobs, that is more important than ever. 
So I want to thank you again, sir.
    Mr. Oberstar. I am very grateful to the gentleman for those 
thoughtful comments. It is and it will continue to be the 
effort and principle of this Committee and this Chairman to 
hear everybody, to listen to everybody, and to stay on course.
    Ms. Hirono?
    Ms. Hirono. It is very clear to all of us on this Committee 
that literally the money spent on infrastructure is concrete 
and it creates jobs. That is one of the major goals of the 
Recovery Fund, and some of you did include in your testimony 
the job retention creation aspects of your programs.
    My question to all of you is how can we be assured that 
those numbers are indeed accurate? Do you have mechanisms in 
place? I take it that the numbers are reported to you by the 
grantees. Do you just rely upon them or do you have some other 
way to ensure that those jobs are in fact being retained or 
created?
    My second question is whether we are meeting our goals with 
regard to the job retention and creation aspects of the 
Recovery Act.
    Mr. Paniati. From the Federal Highway Administration's 
perspective, we have created what we call RADS, Recovery Act 
Data System, which is a system where the data starts with the 
contractor who is employing the workers. That data is then 
reported to the State. The State compiles the data from 
individual contractors. Our division office, which we have in 
each State, works closely with the State DOT and reviews the 
employment data that is provided to the Federal Highway 
Administration and loaded into this Recovery Act database. So 
it is compiled across the country from all of the States 
centrally.
    At that point, we look at the number of jobs that are being 
reported to identify any issues or anomalies; whether it looks 
like anything doesn't match up with what we would expect given 
the amount of dollars being spent. That is the data that is 
then included on Recovery.gov and in reports that are delivered 
to Congress.
    So we feel like we have a very systematic process of 
collecting the data and oversight of that data through the 
Federal Highway Administration staff.
    Ms. Hirono. And for the other administrators, do you have 
mechanisms in place so that you feel sure these numbers are 
accurate?
    Mr. Rogoff. In the Federal Transit Administration, we have 
a process that is somewhat similar. I have to admit it is not 
as robust as Mr. Paniati's. In the early going, we are putting 
an emphasis on getting our funds obligated because, as Chairman 
Oberstar pointed out, we have an obligation deadline where 50 
percent of the funds to 297 grantees needing must be obligated 
by September 1st or those funds are lapsed to other grantees. 
We are collecting jobs data from our grantees. We will be doing 
more routine collection once we know that we are past that 
obligation deadline.
    Mr. Szabo. At FRA, it is a slightly different animals 
since, at this point, our only grantee is Amtrak. So I guess to 
some extent, at this point, it makes our job a little bit 
easier. But, yes, in fact, we have regular reporting from 
Amtrak and, as part of our oversight, we do verify these 
numbers.
    Mr. Babbitt. And from the Federal Aviation Administration, 
we are using a metric. The numbers that I gave you today and 
provided in my testimony are based on a metric of the National 
Economic Council as an advisor, and once the grants are 
reported and underway, we will collect the data and have 
accurate information. But the numbers I gave you today were 
forecast on a metric.
    Ms. Hirono. And are we meeting our job retention and 
creation goals with the Recovery Fund money?
    Mr. Paniati. I think it is too early to tell. I think we 
are seeing positive progress. As I reported earlier, we saw a 
tremendous increase from March and April to May. The number of 
projects that are underway has increased dramatically, and 
those projects are really just beginning their construction now 
as construction season gets into high gear. So I expect another 
dramatic increase as we get into July and August and September, 
the prime construction months. So it is hard to pin down 
exactly where we are, but all the indicators are that we are 
headed in a positive direction from a job creation standpoint.
    Mr. Rogoff. I would just add that we in Federal Transit 
also believe we are on track. We just had a law change 
regarding the Recovery Act signed by the President yesterday 
that may serve to retain even more jobs. The President signed 
the supplemental appropriations bill yesterday that included a 
provision to allow 10 percent of the Recovery Act formula funds 
to our grantees to be used for operating costs. That is a 
midstream change in the purposes. We do have a situation where 
we have got transit agencies that are taking receipt of capital 
funds, but are simultaneously having to lay off employees; and 
we are hopeful that that added expansion will allow them to 
retain those employees and keep them about their business and, 
rather than curtail bus routes and lay off bus drivers.
    Ms. Hirono. That makes sense.
    Thank you. I believe my time is up. Thank you very much.
    Mr. DeFazio. [Presiding] On your side, Mrs. Miller? Mrs. 
Miller is recognized.
    Mrs. Miller. Thank you very much, Mr. Chairman. I 
appreciate all of your testimony. I am sorry I missed most of 
your testimony; I was at another meeting. But I do think it is 
very important that we continue to monitor the progress of what 
is happening with the stimulus funds.
    I would like to draw your attention to an AP article that 
was all over the place around the beginning of May, many of you 
probably read it, I subsequently wrote a letter to the Chairman 
and the Ranking Member pointing out the article said Stimulus 
Watch: Early Aid Leaves Out Neediest.
    I like to think of myself as looking at things from a 
global perspective, but, in full transparency, you cannot 
believe how bad things are in the State of Michigan, so I am 
going to be a little parochial in my questioning here, because 
we do have the dubious distinction of having the highest 
unemployment month after month after month, and there is no end 
in sight for us. So we just sort of want to make sure we are 
getting some attention there.
    In fact, this article said 50 percent more per person in 
areas with the lowest unemployment than areas with the highest. 
They actually mentioned one of my counties. I have five 
counties I represent; one is the County of Lapeer that has 
about almost 20 percent unemployment now, and they weren't 
getting anything. So I guess I would just like to ask you. I 
think you have made some corrections. I don't know exactly 
where Michigan is right now, but just generally knowing, with 
the kind of unemployment that we have and that we were so far 
behind with that, could anybody comment on--I don't know if any 
of you read the article, but where are you now?
    Mr. Paniati. I can say that one of the provisions in the 
Economic Recovery Act is to give priority to economically 
distressed areas, and that is something we are working very 
closely with the State Departments of Transportation on. We 
have provided them with some tools that they can use to overlay 
their project selection on the economically distressed areas to 
see how well they are matching up, and we are providing a lot 
of oversight to see not only the process they are using, but 
what the outcome is.
    I do know, in information I just got recently, that in 
Michigan 77 percent of the money thus far that has been 
authorized has been authorized for projects in economically 
distressed areas in Michigan. So I do think we are seeing the 
spirit of the legislation being adhered to and that State DOTs 
are, in fact, trying to move the money to the most economically 
distressed areas within their States.
    Mrs. Miller. I appreciate that. It is really sort of 
Southeast Michigan and down the I-75 corridor into Dayton, I 
think, is arguably the worst hit from an unemployment 
standpoint, at any rate, if you use that as a criteria in the 
Nation; and, as I say, no end in sight. So we are interested in 
making sure that, in fact, when we talked about the stimulus in 
regards to transportation spending and had the hearing at this 
Committee, I was one that said it is too bad we had to use the 
Highway Trust Fund formula, because Michigan and other States 
are donor States, actually. If this economic stimulus and we 
are trying to get the areas that have high unemployment, maybe 
we could use that as a criteria. I think it would have changed 
things. I realize that didn't happen, but I made that point.
    In fact, now I would like to make one other point going 
forward. Because of the work of this Committee and others, we 
were able to negate the necessity for a match with the economic 
stimulus, because we all said, look, we don't have any money, 
we can't, believe me, I understand the concept of a match, but 
these are extraordinary times and some of our States could not 
have afforded the match. Our governor and our DOT just, a week 
or so ago, said that we are going to forego about three-
quarters of a billion dollars in projects, money that has 
already been appropriated, authorized, I should say, for 
Michigan because we don't have the match.
    I don't know if I am asking you for a response on this, but 
I certainly want to mention this because we had a delegation 
meeting yesterday with our governor, and, from our perspective, 
we are saying our motorists already paid this money at the gas 
pump. Now we are going to lose all this Federal highway money 
because we do not have the match as we go forward for the next 
couple of years. If there was some way that we could get a 
waiver from the match. We are not asking the Federal Government 
for another dollar, we simply want the money that we--instead 
of that, not only are we a donor State, but it appears as 
though we are now going to lose almost $800 million--this is 
our first round of cuts; I am sure more will be coming--because 
we don't have the match.
    I realize I sound like I am groveling here, but I am 
getting pretty good at abject groveling just for our fair share 
of money that we already paid. And it is not like it is going 
to go away. I mean, it is going to go; it is going to go to 
other States that are doing better than we are because they can 
afford the match.
    I don't know if anyone has any comment on that, but 
obviously has our total attention in Michigan.
    Mr. Szabo. Congresswoman, just one comment from the FRA 
perspective. As part of the guidance that we issued for our 
high speed rail grants, no match will be required.
    Mrs. Miller. For the stimulus funds.
    Mr. DeFazio. Thank you. The time of the gentlelady has 
expired. Thank you.
    Mrs. Miller. Thank you.
    Mr. DeFazio. As I said earlier when I passed, I will take 
my time now.
    I guess there are a couple of questions about how we 
properly measure the impact of the stimulus package, and there 
was a statement made by the Ranking Member that the funding is 
trickling out too slowly because of excessive Federal 
regulations and tied up in red tape.
    Now, I am going to ask for a quick response on that, but in 
terms of the records that are kept here, where half the highway 
money had to be committed within 120 days of apportionment, my 
understanding is, as of last week, 43 States and the District 
have complied. So it doesn't sound like we have a red tape 
problem here, do we, Mr. Paniati?
    Mr. Paniati. No. Actually, the most recent information we 
had is that, as of last Friday, all 50 States met that goal.
    Mr. DeFazio. So all 50 States have managed to meet the 120 
day deadline to obligate half of a very substantial investment 
and get it obligated.
    Mr. Paniati. In fact, as of the latest data, 15 States have 
obligated more than 80 percent, and Maine 100 percent. So the 
States are moving with great speed to obligate these funds.
    Mr. DeFazio. So it doesn't sound like we have a red tape 
problem here.
    Mr. Paniati. I don't see one.
    Mr. DeFazio. Okay.
    Mr. Rogoff, on your side?
    Mr. Rogoff. Well, the FTA has slightly a longer period to 
obligate their funds. We have until September 1st. We see 
ourselves as being on track to do that. Currently, we are at 
just over 21 percent, but some of our largest systems, which 
represent a larger part of the money, are at figures that are 
well north of 20 percent. For the so-called ``Rail-Mod'' 
program, we are at a full third of the money already having 
been obligated. We have some money in discretionary grants that 
we will be obligating this summer and fall.
    As I mentioned earlier, we have 2297 separate grantees. We 
are working with each and every one of them and we are hopeful 
that we are going to lapse back very little, if any, money.
    Mr. DeFazio. Okay, so red tape isn't the problem. We have 
got more than half the money obligated; some States are at 100 
percent. But then we have the question of outlays. Wouldn't 
outlays be the States and transit entities are both reimbursed, 
right, after they have expended their own funds?
    Mr. Rogoff. Mr. DeFazio, it is slightly different between 
the highway program and the transit program. The highway 
program is really, I would argue, a pure reimbursement program.
    Mr. DeFazio. Right.
    Mr. Rogoff. In transit, it depends more upon the type of 
expenditure. Frankly, the transit agencies aren't sitting on a 
situation of cash where they can await reimbursement, but I 
would point out a great many of our transit grantees have 
signaled to us that they are using what is called pre-award 
authority.
    Mr. DeFazio. Right.
    Mr. Rogoff. And that is basically a statement by those that 
are using pre-award authority that they are spending money now. 
That will not show up in the obligation figures.
    Mr. DeFazio. Okay. I guess what I would point to is I think 
that we need to look more at the obligation and then within the 
States at their progress. And I can understand that the Ranking 
Member is frustrated because Florida actually has zero projects 
under which work has begun, so maybe he needs to be talking to 
his DOT there, I guess, because the problem isn't with Mr. 
Paniati or the Federal Highway Administration or, as far as we 
can tell, with transit; somehow they just can't get their 
projects underway.
    I am going to turn now, Mr. Rogoff, to this proposal, the 
18-month, which you so ably, as the Chairman said, were a good 
soldier on. I have a particular concern with FTA. We have a 
measure which Congress has twice passed legislation to direct 
the FTA to follow--first we initially changed the law and then 
we passed legislation to direct the FTA to follow the law 
regarding how New Start, Small Start projects are scored with 
something called the black box of TEA sub into which projects 
go and never emerge, and we feel strongly--Congress, House, and 
Senate--that the measures are not being followed.
    I guess two questions here. Since the President is 
proposing a status quo continuation of the Bush era policies 
across the board for 18 months, what are we going to do about 
cost effectiveness? Then, secondly, I hear some bizarre 
rumblings from the Secretary that someone in CQ has a bright 
idea for some new cost-effectiveness measure that would be 
applied to all transit and highway projects. Whatever that 
might be, he couldn't explain it; he said OMB was working on 
it, which concerns me, because we have never managed to get rid 
of TEA sub and get the FTA to follow the law with the existing 
CEI process in the agency, and now we are hearing that would be 
the one policy change they want, is to add another bureaucratic 
step in the process, but not reform anything else; they are 
willing to go with the existing bureaucracy. So we have some 
concerns about that. How are you going to solve it in the case 
of your agency?
    Mr. Rogoff. In the case of my agency, sir, first, I can't 
agree with you that what the President is proposing is more of 
the Bush era policy.
    Mr. DeFazio. Well, excuse me. Senator Boxer announced 
today, July 22nd, clean bill, no changes in policy, just money 
for 18 months. That means, yes, you have some administrative 
leeway and perhaps you are going through an administrative 
process to change some of those policies, but the dramatic 
changes--if you have had an opportunity to review our bill--
that we want to make and how your agency and the other agencies 
of the Department of Transportation operate, which would be 
dramatically changed and streamlined in our bill--we figure we 
can go from 14 years average delivery on a major transit 
project to maybe 3 under our proposal--I don't think you have 
the administrative leeway to do all that. Plus, OMB still has 
not repealed, as I understand it, or okayed doing away with the 
existing----
    Mr. Rogoff. Cost-effectiveness criteria.
    Mr. DeFazio. Yes.
    Mr. Rogoff. Let me speak to that. For one, I can't speak to 
what Senator Boxer has proposed, but----
    Mr. DeFazio. I am just telling you. We just heard about it.
    Mr. Rogoff.--it is not what the President has proposed. 
When you really look at what you have reported out of your 
Subcommittee--I have to admit we haven't seen every dot and 
tittle of it, but we are familiar with it--there is actually a 
remarkable confluence on some policy issues between what the 
President's 18-month proposal is. It includes a livability 
component that he wants to see in the 18-month extension; it 
includes a metropolitan mobility initiative, which you also 
have in your bill.
    And, yes, it does have an issue related to cost benefit 
analysis, but that proposal for cost benefit analysis is not a 
mirror of the transit New Starts process. No one in this 
Administration is particularly content with how things are 
going with the transit New Start process, and I will tell you, 
if we brought that process as it was done under the last 
administration to bear on highway projects, nothing would get 
built.
    Mr. DeFazio. That is right.
    Mr. Rogoff. And no one is proposing to do that. What the 
President is proposing to do is put together a program where we 
can stand up the ability for MPOs and States to choose better 
projects. He is not saying that that is necessary brought to 
bear----
    Mr. DeFazio. Okay, if I could interrupt, I think we have 
already said you have looked at our bill. We are proposing 
major reforms in MPOs and major reforms in how the process goes 
forward, how the projects are selected. We are applying new 
criteria which meet the concerns of the President in terms of 
livability, greenhouse gas reductions, and a whole host of 
things, and you are saying you want those policy changes.
    So I guess the question becomes, since we seem to be so 
close together in terms of the policy and the streamlining and 
the changes we want to make and we are in agreement on those, 
then the only difference seems to be whether it is 18 months or 
six years; and, as I understand the aversion to a longer term, 
it is because they don't want to approach the revenue issue. I 
am proposing a very simple revenue issue and I gave it to Chief 
of Staff this morning. I am proposing it to Ways and Means.
    We have heard that we have run up fuel costs or oil 50 
percent--or it has doubled, 100 percent--because of 
speculators. Well, pretty simple. We take Larry Summers' 
proposal from 1989 about taxing these sorts of transactions, we 
apply a .2 percent, two one hundreds, .002 to every speculative 
trade in oil; we raise $40 billion a year and pay for the bill.
    So if we are in agreement on the policies and we can find a 
way to raise the money without taxing consumers, would the 
Administration then agree to a longer term extension, do you 
think? I know you can't answer that.
    Mr. Rogoff. The Administration is focused on getting us 
passed bankruptcy in August.
    Mr. DeFazio. Right. Well, we are happy to work with them on 
that.
    Mr. Rogoff. And doing it for a 18-month period with 
reforms. Now, in fairness, we see a lot of confluence, as I 
have pointed out, between your Subcommittee product and our 
principles for this extension, but there is another Committee 
we haven't heard from, Ways and Mean, and how a $500 billion 
bill is going to get paid for. And, right now, during this 
economic time, the Administration is not----
    Mr. DeFazio. Well, 450 is trust funded or General Fund into 
transit. Of that, because of the way scoring and outlays work, 
we need to raise an additional $140 billion. I have got a way 
that we can easily raise 240, so then the President would have 
50 left over for high speed rail, which you included in the 
500, which is subject to appropriation.
    Mr. Rogoff. That is right.
    Mr. DeFazio. And then I would have 50 left over for health 
care or something else, deficit reduction or whatever.
    Well, thank you. I have exceeded my time. Are there any 
other Republicans? Mr. Cao, have you had your time yet?
    Mr. Cao. Thank you very much. I have not.
    Mr. DeFazio. Okay. You are recognized.
    Mr. Cao. Mr. Rogoff, what is the Administration's plan 
after the 18-month extension were to expire?
    Mr. Rogoff. Well, I think the Administration is looking at 
this reauthorization basically as a two-phase process, and the 
18-month extension with reforms is the first phase.
    I think that is one of the things that has been lost in the 
dialogue here. The Administration is not asking for the 
reauthorization process to come to a halt. As far as we are 
concerned, work on a long-term reauthorization should continue 
through dialogue between the Administration, between the House 
and the Senate, and we should have a meaningful conversation 
about what we should be standing up in the next 18 months so, 
when we can do a longer term extension after that and come to 
agreement on the finances, we can have a multi-year bill with a 
financing mechanism. The economy being where it is, the 
Administration is not comfortable talking about new revenues at 
this time, and that is why the President's budget in 2010 has 
an increase for highways, an increase for transit, albeit more 
from the General Fund than the Trust Fund.
    Now, you asked what the specifics were. In addition to a 
metropolitan access program that they want to see in the 18-
month extension, which is a concept captured in this 
Committee's bill, there is also a livability component in the 
18-month extension. That also bears resemblance to some of the 
things being done in the Committee bill. We are strongly of the 
view that there should be no earmarks during this 18-month 
period, and that the $20 billion that is needed to bail out not 
just the highway account of the Trust Fund, but the mass 
transit account, is going to have to be responsibly paid for.
    That is the Administration's proposal while we work 
together on a longer term bill and the revenue sources to pay 
for it.
    Mr. Cao. Now, the Recovery Act requires the States to give 
priority to projects that are located in economically 
distressed areas. Is there a system that you have implemented 
in order to make sure that that is the case, that the States 
are giving priority to those areas that are distressed, or the 
governors and/or the State legislators are simply allocating 
funds for political purposes?
    Mr. Rogoff. I am going to let Mr. Paniati take that one.
    Mr. Paniati. That is a provision specific for the highway 
funds. It is one of several factors that needs to be considered 
in selecting projects. We obviously have to have projects that 
are ready to go, that have moved through the environmental 
process and the planning process and are ready to move to 
construction. What we are seeking to do is to have as many of 
those projects as possible be located in economically 
distressed areas. So we have developed a mechanism by which we 
can look at, within any given State, where the economically 
distressed areas are and overlay on there where the projects 
are within those economically distressed areas.
    Each division office and division administrator is working 
closely in reviewing the process the State is using for 
selecting projects, as well as the outcome from that process, 
which is how much money is actually going to economically 
distressed areas. Right now we are just beginning to get 
information about that, but we have seen, in a number of 
States, I referred earlier to Michigan, we see 77 percent of 
the funding that has been obligated to date in Michigan is 
being used in economically distressed areas.
    We are seeing similar figures in other States, such as 
Mississippi and Idaho. So it is giving us some sense that, yes, 
the provisions in the Act are being adhered to and we are 
seeing money flow to economically distressed areas as part of 
the economic recovery funding.
    Mr. Cao. Now, does your agency have any kind of mechanism 
to make sure that the monies that are obligated to be used 
expediently in order to actually put it to good use, rather 
than simply obligating the money and just have it sit there?
    Mr. Paniati. The projects that are being selected are 
projects that are ready to go, so we are seeing those projects 
move very quickly from obligation to advertisement to award to 
underway. That is why, when we look at we have 5,000 projects 
that have been approved to date, already 1,500 of those 
projects are underway.
    So we are seeing projects move very quickly through the 
pipeline. The State DOTs are very committed to seeing that 
happen, as are the local governments, so I don't think we are 
going to see a lot of money sitting around. We are seeing 
projects move very quickly to getting people to work.
    Mr. Cao. Now, I see that the transportation outlays, as 
provided on this map, provides a certain money allocated to 
each State. Are the numbers here set in stone or are there 
wiggling room for you all to move funds from one State to 
another?
    Mr. Paniati. On the highway side, the monies are 
apportioned, so they are distributed by formula, so there is no 
discretion, with the exception of a discretionary program in 
the law, which provides $1.5 billion of discretionary funding, 
that the Secretary will make the selections on. That is being 
worked in a multi-modal manner. Representatives from each of 
the modes represented here are participating in that process 
for establishing the criteria for that grant program and will 
participate in reviewing the proposals that come in. So that is 
the one program that is very flexible and will be able to be 
used in a variety of different ways.
    Mr. Rogoff. The only thing I would add, sir, is we do have 
provisions where, if funds are not used, which is to say they 
are not obligated by the deadlines in the law, they are 
reallocated to players that are prepared to use the money. So 
in that regard we are not locked in to the distribution list 
you are seeing on your map there. If funds are freed up from 
those that have not put them to use, they will be moved to 
those that can.
    Mr. DeFazio. Ms. Edwards? Wait a minute. I am sorry. I am 
getting confused. Is she next? All right. I do things in the 
order in which people arrive. I don't know if the staff kept 
track, but I guess we are going by order of seniority, so Ms. 
Richardson.
    Ms. Richardson. Thank you, Mr. Chairman.
    And thank you, Congresswoman Edwards.
    First of all, I would like to attest before the Committee 
that I have had an opportunity to go to three events, 
particularly with aviation, of these recovery dollars being 
distributed, and I want to attest to the fact that it in fact 
is happening, both at Los Angeles International Airport, 
Compton Woodley Airport, and then recently with Secretary 
Napolitano at San Francisco Airport. So in that sense I have 
seen great progress and want to commend you.
    Mr. Paniati, I want to build upon the line of what Mr. Cao 
was just asking you in terms of questions. In your report, on 
page 1, you say that through the efficient implementation of 
the Recovery Act projects, FHWA plays a key role in creating 
jobs, putting people back to work, and keeping families from 
home foreclosure.
    Further, you say, on the same page, the Recovery Act has 
energized working people and companies of all sizes, and is a 
lifeline for Americans who work in construction and have 
especially been hard hit by the recession. Then, on page 4, you 
talk about that every new project we obligate is a signal for 
States to advertise contracts and for contractors to begin 
hiring workers and ordering materials like steel, asphalt, and 
concrete
    I have read all of your presentations and I would just say 
it was a little light on providing information in that area. Do 
you have any information of what new contracts were 
established, what new people were hired? Because that was 
really part of the focus of the recovery, was not just to the 
companies that already have major contracts and have people 
working, to put them now on overtime; it was to give new people 
an opportunity to come in.
    Mr. Paniati. All of the money is being used on new 
projects, so----
    Ms. Richardson. I am sorry, sir, that is not what I asked 
you. My question isn't the new projects; the question is, of 
those projects--because that is what I understand where the 
money is supposed to be spent--are new contractors coming in? 
Are new people jobs?
    Mr. Paniati. I don't have data on that. What I can tell you 
is that a significant effort for us is to work with the State 
departments of transportation to ensure that companies of all 
size and all varieties benefit from the recovery. So, for 
example, there are DBE provisions in the law. We have been very 
aggressive from the beginning in reaching out to State DOTs to 
provide guidance on those DBE provisions, to provide education 
on those provisions, and to ensure that the DBE goals that 
exist under ARRA are the same goals that exist under the 
regular Federal aid program. States have been very aggressive 
in holding a variety of outreach and workshop sessions with the 
contracting community to try to bring in a broader range of 
contractors----
    Ms. Richardson. I am sorry, sir, I have got two minutes. Do 
you have specific results of what has happened from those 
States? Do you have the numbers?
    Mr. Paniati. I do not have numbers on contracts at this 
point.
    Ms. Richardson. Could you provide them to this Committee?
    Mr. Paniati. Sure. We would be happy to do that.
    Ms. Richardson. Specifically what your State DOTs, who they 
have reached out to, what have been the results, are more new 
people working, and so on, the questions that I already asked.
    Mr. Paniati. We would be happy to do that.
    [The referenced information follows:]

    [GRAPHIC] [TIFF OMITTED] T0765.082
    
    Ms. Richardson. Further building upon the economically 
distressed areas, in here, on page 5, you say that you have a 
tool to utilize the geographic information system mapping 
technology to identify the EDAs using information on a per 
capita income and unemployment rate at the county level. Could 
you please supply that information to this Committee?
    Mr. Paniati. Sure. I'd be happy to do that.
    Ms. Richardson. Okay. And that would include, I would 
assume, the percentages of all the areas of how that mapping is 
going?
    Mr. Paniati. Sure.
    Ms. Richardson. Okay. When you have that report, and I 
asked you pretty much from a tracking perspective, if you could 
provide the actual results. That would be important as well.
    [The referenced information follows:]
    [GRAPHIC] [TIFF OMITTED] T0765.083
    
    And that is it. I yield back the balance of my time. Thank 
you, Mr. Chairman.
    Mr. DeFazio. I thank the gentlelady.
    Ms. Edwards.
    Ms. Edwards. Thank you, Mr. Chairman.
    I want to follow up on this question because this has been 
a huge concern in my State of Maryland. We have managed to get 
out a lot of contracts; we had a lot of projects in the 
pipeline, but the question is whether the jobs that are created 
and the distribution of those contracts around our State really 
reflects where the need is for the jobs.
    So even though our State enjoys, by other States' 
standards, a comfortable 7.2 percent unemployment rate, and we 
are grateful for that, still, it is high for us; and there are 
pockets of our State, and particularly in the district that I 
represent, just outside of the District of Columbia, that has 
higher pockets of unemployment, where we have minority and 
other contractors who I don't believe have fully enjoyed the 
benefit of the recovery funds that have come into our State.
    I would like to hear from the Administration, from the 
Department of Transportation really directly by States--and you 
can go in whatever order you want, but I want Maryland in that 
list--to know who has gotten those contracts, where are the 
jobs created, where do people come from in the State, and does 
that actually really represent where the biggest pockets of 
unemployment are in our various States? And I am speaking just 
from a State that has relatively low unemployment by 
comparison.
    Mr. Rogoff. Well, I will kick it off, only to point out 
this, Ms. Edwards. In the Federal Transit Administration, our 
formula dollars are not just formula dollars sent to States, 
they are sent to urbanized areas, and also to rural areas, and 
they are targeted to where the people are and where the transit 
providers are. They are not necessarily targeted to where 
unemployment is.
    But you raised another issue that we take very seriously, 
and that is the outreach to disadvantaged businesses. I can 
assure you that we apply the DBE requirements-- the goals and 
the challenges there-- to every dollar that has gone through 
the Recovery Act in my agency, and I believe the other modes do 
so as well. We have had eight different outreach sessions in 
all of our regions. We have put out a great deal of information 
and have reached out to grantees to ensure that they know that 
these rules apply. We will be getting an update on their 
progress shortly. We get those updates every six months as it 
relates to DBE participation in the program.
    Ms. Edwards. And I appreciate the outreach, but our 
businesses would appreciate a contract.
    Mr. Rogoff. Absolutely.
    Ms. Edwards. So I want to know much more about contracts, 
and I think this is particularly true for the States--and, Mr. 
Paniati, perhaps you could speak to this--to the State letting 
of contracts, because in our State, when things are already in 
the pipeline, in a lot of those instances contractors have 
already been identified, they just didn't have the money to 
really let the contracts. So I have a real question whether 
those resources are spread fairly around the States and what 
you are doing to monitor that, and then to get back to us about 
where States may not be making the mark and what the agency can 
actually do to better enforce those requirements.
    Mr. Paniati. I would be happy to get back to with specific 
data for Maryland and other States as well, but I can tell you 
that it is a priority of the Federal Highway Administration to 
ensure that the DBE provisions are implemented and that the 
money is being equitably spread. Our division administrators 
have been working closely with the State DOTs on this. We have 
been working with the States to have the kinds of outreach 
sessions that Mr. Rogoff indicated.
    We are also looking at the outcomes to see what percentages 
of the contracts are going to DBE contractors. We are very 
strongly encouraging them to look beyond the traditional 
contracting community and to provide supportive services and 
other help to bring new businesses into the fold, so to speak, 
and that is happening. So I will get back to you with specifics 
about Maryland and what is going on there.
    [The referenced information follows:]

    [GRAPHIC] [TIFF OMITTED] T0765.084
    
    [GRAPHIC] [TIFF OMITTED] T0765.085
    
    [GRAPHIC] [TIFF OMITTED] T0765.086
    
    Ms. Edwards. I would really appreciate it, and I think it 
goes to the question that we will deal with down the line, is 
not just these stimulus funds, but how do we deal with these 
contracts down the line as we go to authorization; and I want 
to just say a word on that, two things.
    One, Mr. Rogoff, I really thank you for pointing out the 
ability of transit systems to use those operating funds, 
because our district was one of those with the Metro D.C. 
system that was really facing cuts in bus routes at a time we 
thought we were stimulating work. But I share the concern of 
this Committee, from this Member, that 18 months is just 
unacceptable in terms of a delay in our authorizing what ought 
to be a companion between what we do in transportation and what 
we do with our energy policy. So I think Congress has its own 
obligations and fiscal responsibilities, which we will meet, 
whether or not the Administration is prepared to meet them.
    Thank you.
    Mr. DeFazio. I thank the gentlelady.
    Mr. Hare.
    Mr. Hare. Thank you, Mr. Chairman.
    Mr. Boardman, we have kind of left you alone here for a 
while, but now you are it. You mentioned that Amtrak expects to 
award about $190 million worth of projects. I wonder if you are 
aware, when I have one--a lot of Members have been talking 
today about some projects in their districts, and the Quad City 
to Chicago passenger rail and then from the Quad Cities west to 
Iowa City, my understanding is this would create about 800 
jobs, cost about $23.2 million, and estimated about 170,000 
riders on that particular project.
    We have worked very hard on this, Congressman Braley and 
myself. I know both governors of the States have endorsed the 
project. Do you know much about this and is this something that 
you folks could help us with or something you have already 
taken a look at? If you could just help me out there.
    Mr. Boardman. Certainly. Number one, we do know a little 
bit about it and we have been helping you. Our staff, Mike 
Franke I think has been out there working on a regular basis 
both to the Quad Cities and also into Iowa to look at what can 
be done now. Of course, to get into Iowa, we have got some 
projects that we need to do in Illinois to make that happen.
    That is part of what we are looking at for the $8 billion 
side of what is going to happen, which the FRA provided, and 
perhaps the Administrator would want to comment on this as 
well, but there is a requirement that now that there is an 
application made by the State of Illinois or by Iowa to receive 
those funds, and they need to be competed for in the overall 
concept of what is happening with the $8 billion and whether 
they are really ready to go at this point in time or whether 
they aren't. We do understand the need of it and we understand 
the interest, and we are working with them.
    Mr. Hare. I was going to say, because my understanding is 
both States are going to do a dual application, I think Iowa 
and Illinois.
    Mr. Szabo, do you know much about this? Can you help me out 
here a little bit?
    Mr. Szabo. Well, certainly----
    Mr. Hare. Actually, you could help me out a lot if you just 
give me $23.2 million.
    Mr. Szabo. That is what I was going to say it would 
certainly be inappropriate for me to comment on the merits of 
any particular application at this time.
    Mr. Hare. Right. I understand.
    Mr. Szabo. But the grant guidance is out. There will be a 
pre-application period which will allow us to review and give 
some assistance, some guidance to the various DOTs to make sure 
that they are applying in the appropriate track under our grant 
guidance that would be most beneficial for them. You know, the 
biggest thing that we have urged is that there be a high level 
of regional cooperation, so making sure that the Iowa DOT and 
Illinois DOT work closely together on that application would be 
very beneficial.
    Mr. Hare. Lastly, Mr. Boardman, let met just say that your 
staff has been very, very cooperative, and I really appreciate 
that. They have done a wonderful job helping out here. It is a 
big project for our area that has been really hit economically 
hard, and that is something that I am hoping that, if we cross 
our fingers here, we may just get lucky and be able to land 800 
jobs full-time, and long-term jobs would be great.
    So let me thank you all for being here today and I yield 
back, Mr. Chairman.
    Mr. Boardman. Thank you, Mr. Hare.
    Mr. DeFazio. I thank the gentleman.
    I will proceed with another round of questions and yield 
myself such time as I may consume.
    I am a bit puzzled about the 18-month proposal, and I would 
direct this to Mr. Paniati and Mr. Rogoff. In FTA, obviously, 
the funding is a little different, but outside your full 
funding grant agreements in FTA for your regular apportionment 
and formula programs, and our major transit districts, for the 
most part, who have vast capital infrastructure needs--the City 
of Chicago, $6 billion of deferred maintenance; we have had a 
tragedy here which may have to do with deferred acquisition of 
new equipment or maintenance, we don't know yet.
    But if we set an 18-month parameter, how are any of these 
States going to undertake a project that takes two years, three 
years, four years, or five years, which many major projects do, 
when they are only essentially guaranteed 18 months funding? We 
ran into this during the last authorization. We saw a dramatic 
drop-off in projects and particularly larger, longer term 
projects because of the uncertainty created by the temporary 
extensions, and this essentially would be a temporary 18-month 
extension of current funding levels and/or policies, depending 
upon whether we can work things out on policy changes.
    Mr. Paniati first. How is the State going to plan a two or 
three year major project if they are only guaranteed 18 months 
of funding?
    Mr. Paniati. Well, I believe the States would have faith in 
the Administration----
    Mr. DeFazio. No, but my State and many States are 
constrained by their State constitution and other fiduciary 
responsibilities. They cannot commit themselves to something 
for which they cannot reasonably guarantee or foresee revenues. 
And just saying, well, gee, the Government will make good on, 
if you plan a three-year project, but we have only got 18 
months of funding, trust us. It didn't work during the last 
reauthorization. Why is it going to work now when States are in 
much worse shape financially and their capability of borrowing 
is dramatically reduced because of the problems in the 
financial markets? Why is it going to work better no than it 
did then?
    Mr. Paniati. The States would still be able to obligate 
projects with the funding provided, so if the funding was 
available under the 18 months, it would not at all restrict 
their ability----
    Mr. DeFazio. Right. But if the project is going to take 
three years to complete and we anticipate we can outlay maybe a 
third of that under the 18 months, but two-thirds we are going 
to have a project that is hanging out there, two-thirds of the 
money is not available and they can't get to that part of the 
project and ask for reimbursement during the 18-month period, 
how is it that they are reasonably going to plan that project, 
or do you think they might just pull back from these major 
projects like they did the last time?
    Mr. Paniati. I think the reason they pulled back the last 
time is that the money was coming out in small increments--some 
of the extensions were for a matter of weeks. I think it is 
different when we are providing a full year----
    Mr. DeFazio. Yes, but the point is uncertainty. Okay, thank 
you. I don't think you have answered it.
    Mr. Rogoff?
    Mr. Rogoff. Well, I think Jeff's point is well taken. I was 
obviously working in the Congress when they were doing those 
short-term extensions, and some of them were as short as a few 
weeks. Part of the Administration's thinking in doing a full 
18-month extension, and not a 6-month or a 3-month or a 12-
month, is to provide stability during that time.
    What is forgotten here is the centerpiece of that proposal 
is to get us passed the biggest hurdle we face of all, and that 
is the imminent bankruptcy of the Highway Account with the mass 
transit account going bankrupt not that long thereafter. And I 
think of the----
    Mr. DeFazio. Let's just not alarm the public too much. They 
don't go bankruptcy, they go into cash flow insufficiency. 
There is still income; it is an----
    Mr. Rogoff. Absolutely. But as you pointed out yourself, 
Mr. Chairman, the States are strapped in ways that they have 
never been before, so the States' ability to float money while 
the Federal Highway Trust Fund doesn't reimburse them, if they 
ever had that ability, they certainly don't have that ability 
now.
    Mr. DeFazio. Right. Well, I am well aware of that, and that 
is why we are concerned about 18 months versus the 
predictability of six years and enhanced investment to begin 
chipping away at our infrastructure deficit. As I understand 
the 18-month proposal, it is basically continuing this year's 
levels of expenditures, right?
    Mr. Rogoff. No, it is based on the President's budget, 
which has increased levels of expenditure in 2010 for both 
highways and transit.
    Mr. DeFazio. Okay. And that anticipated General Fund----
    Mr. Rogoff. A greater level of General Funds.
    Mr. DeFazio. And where is the General Fund money going to 
come from? Senator Murray has already expressed a lot of 
concern about her other transportation needs being robbed to 
move money over here. I guess you have said several things 
today that are a bit surprising. One is that there are major 
policy changes that the Administration would like to see in the 
18 months, we have not seen those, and I will get this to a 
question in a moment, that there would be some sort of new cost 
benefit analysis, which we had heard, which we have not yet 
seen yet; and, according to Secretary LaHood--I don't think you 
said this today, but obviously it is assumed in your remarks--
that there will be funding offsets or revenues.
    I guess we have taken revenues off the table, so I guess I 
would like to know what are the offsets, when are we going to 
see the cost benefit analysis, when are we going to see the 
policy changes? Because since we seem to be in sync with you on 
needed policy changes and the Senate, both Senator Murray and 
Senator Boxer have said no policy changes, it would be useful 
to begin a dialog and see what your proposals are if you want 
us to move policy changes, because right now the Senate is 
saying no policy changes.
    Mr. Rogoff. Well, we are certainly happy to share the 
concepts both with you and the Senate. I think on the cost 
benefit analysis----
    Mr. DeFazio. When will they be shared? Because I asked 
Secretary LaHood last week and he said it was up to OMB. And we 
know that they are as big a black hole as TEA sub.
    Mr. Rogoff. I am obviously not in a position to go out 
farther than he has.
    Mr. DeFazio. Okay. Well, so we are basically waiting, and 
you guys have some big plans, but we don't know about them, and 
it has got to be done basically by the end of July.
    Mr. Rogoff. Well, I think we have presented some 
granularity as it relates to the concepts. Do we have bill 
language? No, none to transmit at this time.
    But as far as the cost benefit analysis goes, given our 
dialog before, as I understand it, it is not about leveling a 
new cost benefit analysis on each and every State and local 
project, it is about standing up an ability for our State DOTs 
and our MPO partners to develop the capability, which some of 
them do not have now, to bring cost benefit analysis to bear on 
the projects they choose.
    Mr. DeFazio. And to compare projects across modes and have 
flexibility----
    Mr. Rogoff. Amen.
    Mr. DeFazio. Okay. Well, that is in our bill, so I would 
recommend our bill to you.
    I believe Ms. Norton has questions. Ms. Norton, would you 
like to proceed at this point?
    And I would ask Ms. Edwards to assume the Chair at this 
point, if you could. Thank you. I appreciate your doing that.
    You are recognized.
    Ms. Norton. Thank you, Mr. Chairman.
    Mr. Paniati, I have got a couple of questions for you. I 
wonder if you are familiar with the $20 million in the Highway 
Trust Fund for use in training for pre-apprentice and 
apprenticeship programs because of the concern Congress had 
that the construction industry, burdened with some of the 
highest unemployment in the Country, also has not been 
replenished with new people. In fact, some of these people are 
aging out, that is to say, the train journeymen.
    Meanwhile, not in about 25 years has there been a program 
of the kind there was in the 1970s, when the industry itself 
was found by the courts to have discriminated; and I hasten to 
add that is not the condition of the industry today. But at 
that point it was recognized that what was needed was not only 
so-called affirmative action programs, but training, and there 
was management labor with Government, also a party to funding.
    For 25 years that has not been the case, so you have got a 
construction industry that is a largely white male industry for 
that reason; not because of the old problems of discrimination, 
but because there has not been systematic training of 
minorities and women who would be the new workforce.
    Now, we put a small amount in and somebody would have to 
sit down and figure out its distribution for pre-apprentice and 
apprenticeship programs. I am trying to get a straight answer 
on what is being done with that funding.
    Mr. Paniati. Yes. We would agree that it is an important 
element of the program. What we have done is taken a two-
pronged approach with that $20 million. The first part of that 
was to go out and solicit proposals from existing on-the-job 
training programs that were out there, because we felt like 
that was a quick way to get some money out and to continue 
those programs.
    We have received proposals, we have evaluated those 
proposals, and we expect within the next month to make 
announcements on $6.7 million of funding to more than 20 
jurisdictions to support on-the-job training programs, as well 
as $1.5 million that would go to the Bureau of Indian Affairs 
for use on tribal lands.
    The second approach was to take the remaining funds, 
approximately $12 million, and to look for proposals from new 
programs, from ones that go beyond those that existed already. 
We issued a solicitation for that program; it has closed. We 
have the proposals. I think we have something like $25 million 
of requests for that about $12 million of availability. We are 
in the process of evaluating those proposals as we speak, and 
we expect to make awards in July for the remainder of the 
funding.
    Ms. Norton. Mr. Paniati, I couldn't be happier with your 
response. I hadn't been able to find out where responsibility 
was located and what has been done. In what office is that very 
important work that has been started so well, what office is 
responsible?
    Mr. Paniati. It is within our Office of Civil Rights within 
the Federal Highway Administration.
    Ms. Norton. I couldn't be happier that you have gone ahead 
and done this. I was concerned that the GSA, if $20 million is 
a small amount, which had $3 million, was going to be in 
particularly bad shape doing nationwide proposals, I had 
suggested to them one of two things you need: you need to 
partner with DOT or you need to quickly get yourself a task 
force to zero in on how many jurisdictions should get this and 
get yourself a consultant; and we understand they were indeed 
trying to get a consultant. To your knowledge, has any contact 
been made with or by the GSA?
    Mr. Paniati. Not that I am familiar with.
    Ms. Norton. I will make that inquiry, because the kind of 
answer you have given is precisely the kind of response we have 
not had from them. GSA is not here because it is not a program 
involving highways in any way, but it has almost $6 billion to 
do precisely the kind of work you are doing in highways, 
building construction of various kinds.
    Let me ask you about a Federal project that is, indeed, a 
signature project, the building of the Department of Homeland 
Security in Washington, D.C., where we expect ground to be 
broken shortly, certainly this year. We have been having 
meetings more about transportation than about the project 
itself, which seems to be going well; it is the transportation 
that has been a problem.
    We were able to deal with Shepherd's Parkway. We have got 
14,000 new Federal employees going across the river for the 
first time in the history of our city to land owned by the 
Federal Government, the old St. Elizabeth's West Campus. And I 
thank you very much, because I believe it was the Highway 
Administration folks who came in to see us.
    Left unresolved was a very big problem, totally Federal 
problem. These employees are coming to a part of the District 
that is adjacent, virtually, to Bolling Air Force Base, and we 
are concerned that about 8,000 of them are going to be using 
that entrance close to Bolling. We are informed that Bolling 
will be getting 8,000 new people on top of the people they 
have----
    I am sorry, if I can just finish and get an answer to this 
question, I would appreciate it.
    We know 8,000 will be using this Malcolm X area to make 
their entrance to St. Elizabeth's with an interchange. Could I 
ask you, given the good work you all have done on Shepherd's 
Parkway, to facilitate this Federal project, whether or not, 
and I should let you know that the District, of course, is not 
going to take care of this Federal project within any highway 
funds it has, whether there has been discussion within the 
Federal Highway Administration of how this matter can be 
resolved, this major transportation matter for making sure 
these 8,000 people get in to this new development?
    Mr. Paniati. I know that staff from our Federal Lands 
Office have been actively involved in the St. Elizabeth's 
project. I don't know the specifics of where they are right now 
on the issue that you referred to, so I will have to get back 
to you for the record on that.
    Ms. Norton. I wish you would get back or have them get back 
to us within 10 days about what--we are just trying to get 
ahead of what could be a major problem if we don't begin to 
work on it now.
    [The referenced information follows:]

    [GRAPHIC] [TIFF OMITTED] T0765.087
    
    Mr. Paniati. Okay.
    Ms. Norton. Thank you very much, and particularly thank you 
for what you have done with these pre-apprentice and 
apprenticeship programs.
    Ms. Edwards. [Presiding] Thank you, Ms. Norton, and thank 
you to the panel. You have spent a lot of time with us this 
morning and you are dismissed, and we will call the second 
panel.
    To begin this second panel, we are joined by the Honorable 
Larry L. ``Butch'' Brown, Executive Director and Chief 
Administrative Officer of the Mississippi Department of 
Transportation, representing the American Association of State 
Highway and Transportation Officials, AASHTO; Mr. Joseph M. 
Casey, who is the General Manager of the Southeastern 
Pennsylvania Transportation Authority, representing the 
American Public Transportation Association; Mr. Brad Penrod, 
Director and CEO of the Allegheny County Airport Authority, 
representing the Airports Council International North America; 
and Mr. John Keating, President and Chief Operating Office of 
Oldcastle Materials Group East, representing the American Road 
& Transportation Builders Association.
    We will begin with Mr. Brown.

TESTIMONY OF THE HONORABLE LARRY L. ``BUTCH'' BROWN, EXECUTIVE 
    DIRECTOR AND CHIEF ADMINISTRATIVE OFFICER, MISSISSIPPI 
    DEPARTMENT OF TRANSPORTATION, REPRESENTING THE AMERICAN 
  ASSOCIATION OF STATE HIGHWAY AND TRANSPORTATION OFFICIALS; 
  JOSEPH M. CASEY, GENERAL MANAGER, SOUTHEASTERN PENNSYLVANIA 
  TRANSPORTATION AUTHORITY, REPRESENTING THE AMERICAN PUBLIC 
  TRANSPORTATION ASSOCIATION; BRAD PENROD, DIRECTOR AND CEO, 
 ALLEGHENY COUNTY AIRPORT AUTHORITY, REPRESENTING THE AIRPORTS 
    COUNCIL INTERNATIONAL NORTH AMERICA; AND JOHN KEATING, 
  PRESIDENT AND CHIEF OPERATING OFFICER, OLDCASTLE MATERIALS 
  GROUP EAST, REPRESENTING THE AMERICAN ROAD & TRANSPORTATION 
                      BUILDERS ASSOCIATION

    Mr. Brown. Thank you, Madam Chairman. As a special note, 
before I begin, we have included a few figures which were 
incorrectly added and now have been fixed, and we will ask that 
we be permitted to submit that revised testimony for the 
record. A couple of just technical changes.
    Ms. Edwards. Without objection.
    Mr. Brown. Thank you, ma'am.
    Madam Chairman and Members of the Committee, my name is 
Larry L. ``Butch'' Brown. I am the Executive Director of the 
Mississippi Department of Transportation, currently serving as 
the Vice President of the American Association of State Highway 
Transportation Officials, and will be the incoming President of 
that association this fall.
    On behalf of the State Departments of Transportation, I 
want to thank you for your efforts in securing transportation 
funding as a part of the economic recovery legislation. Today, 
I want to emphasize three major points: all of the States have 
now obligated 50 percent or more of the non-sub-allocated 
funds, well before the June 30 deadline; projects are under 
construction and people are going back to work in good paying 
jobs; States are directing funds for ready-to-go projects that 
will spread economic recovery and job creation to all corners 
of the United States, with special consideration being given to 
the economic needs and geographic balance.
    The Economic Recovery Act provided $48 billion for 
transportation investment, out of a total of $787 billion. Of 
that, $27.5 billion were for highways, with 30 percent of that 
going to the sub-allocants in the cities and the counties. 
Mississippi received in excess of 354 million in stimulus 
dollars for transportation projects, and I am extremely proud 
to report that we met and exceeded the 50 percent goal well 
ahead of that deadline.
    States have delivered on that deadline. Currently, about 60 
percent of the Recovery Act dollars have been obligated, for a 
total of approximately 4900 projects valued at nearly $15.5 
billion. All the States, the District of Columbia, and Puerto 
Rico now have projects underway. Federal Highway Administration 
estimates there are 1500 or so projects under construction 
valued at approximately $6 billion.
    Many States are moving even faster than the law requires. 
Mississippi, for example, has obligated nearly 80 percent of 
its apportioned funds for highways and bridges. We have only 
approximately $50 million remaining to be contracted. Our 
Transportation Commission crafted a plan that provided 
equitable distribution of projects throughout the State of 
Mississippi to ensure the greatest possible impact in terms of 
jobs creation and economic development. Mississippi plans on 
letting approximately 165 contracts using the ARRA funding. As 
of late May, some 524 new jobs have been created. That many or 
more have been retained, and many more new jobs are expected to 
come. And this effort is being repeated all across our Country.
    States are working hard to ensure that economically 
distressed areas benefit. In Arkansas, the program will deliver 
84 percent of the jobs to distressed areas. Forty-eight of the 
State's 51 projects are now in distressed areas. In Arizona, 
for example, 60 percent of the projects and 40 percent of the 
highway economic recovery funds will be directed directly to 
economically distressed areas of their State.
    The States are flexing highway economic recovery funds for 
transit, inner city passenger, freight rail, and port projects. 
9.9 million is being used for maintenance dredging of the 
Mississippi River's southwest pass to provide safe, efficient 
river channel for navigation for that industry. The Iowa 
Department of Transportation will provide $5 million for four 
freight rail projects. A $15.4 million project in the Port of 
Tacoma, Washington will eliminate all four at-grade rail 
crossings that cause truck and other vehicle traffic delays up 
to 45 minutes several times a day.
    Finally, congratulations to you and your Committee on 
moving out with the six-year bill. We support your efforts and 
are ready to help you deliver on that six-year bill.
    We also urge timely action on critical threats to our 
highway and our transit program, Madam Chairman, an inevitable 
cash flow shortfall of the Highway Trust Fund this summer, an 
imposition of SAFETEA-LU $8.7 billion recision. We urge you to 
take action on those critical issues and we urge you to take 
them in a timely and in a short-term manner.
    Thank you for the opportunity to allow us from Mississippi 
and from AASHTO, the American Association of State Highway 
Transportation Officials, to appear before you here today. I 
would be happy to answer questions when the time allows.
    Ms. Edwards. Thank you, Mr. Brown.
    Mr. Casey?
    Mr. Casey. Good afternoon, Representative Edwards and 
Members of the Committee. My name is Joseph Casey. I am 
representing SEPTA. We provide public transportation in 
Philadelphia and the surrounding southeastern Pennsylvania 
area. But I am also representing APTA, the American Public 
Transit Authority, with 1500 members, including public transit 
agencies and private businesses.
    Public transportation can be a critical component to reduce 
this Nation's dependency on foreign oil, improving the 
environment, and achieving sustainability and improving the 
economy. With the increase in the price of gasoline over the 
last couple years, America has rediscovered public 
transportation. APTA reported last year 10.3 billion trips 
taken on public transportation, the highest in the last 50 
years. SEPTA has seen a similar increase. Over the last three 
years, our ridership has increased 12 percent. And even though 
prices, again, dropped last year, our ridership remains strong 
and we are seeing another 3 percent increase over where we were 
last year.
    The American Recovery and Reinvestment Act is critical to 
mass transit. Prior to enactment, APTA did a survey, and of 200 
providers they identified 800 projects, totaling $16 billion, 
that were shovel ready. As you know, the American Recovery and 
Reinvestment Act allocated $8.4 billion to transit. Fifty-eight 
percent of these funds have been obligated or are currently 
awaiting FTA approval.
    SEPTA's share of the ARRA funds totals $191 million. We 
identified 25 projects, and because we were out early with the 
bids, construction bids came in 17 percent less than our 
engineering's estimate, and we were able to add an additional 7 
projects. Of the 32 projects through May, 22 of the projects 
have been awarded, accounting for 75 percent of the funds.
    Some of the major projects that are we doing: exercising an 
option for 40 additional hybrid buses from New Flyer Industries 
to deal with the growing ridership; replacement of 90-year-old 
track at the terminus yard on the Broad Street line and on the 
Media-Sharon Hill trolley lines; rehabilitation of five 
bridges, the oldest of which was built in 1905; and the 
rehabilitation of three major stations, two on the Broad Street 
line, Girard and Spring Garden, that were constructed in the 
mid-1920s, and one new station on Croydon on our regional rail 
line, on the Trenton line, which will be a brand new station 
replacing a small shelter.
    On behalf of SEPTA, I want to convey my deep appreciation 
of the efforts of this Committee in addressing transit's 
capital needs and for allowing the use of 10 percent of the 
ARRA funds for operating purposes. As you know, the economy has 
deeply impacted operating budgets of public transportation 
systems, and the alternatives all over the Country are 
increasing fares and reducing services. The 10 percent allows 
the services to remain and also saves transit jobs.
    The stimulus package was a welcome relief, but only a down 
payment to rebuilding the transit systems. A recent report by 
FTA identified the needs of the seven largest rail systems, 
which carries 80 percent of the rail riders. The report 
concluded that $50 billion is needed to bring these systems to 
a state of good repair.
    For SEPTA, $4 billion is needed to bring our system to a 
state of good repair. Among the major capital projects, we have 
400 bridges, 200 of which are over 50 years old and half of 
them, 100 bridges, over 100 years old. On the rail system, we 
have 150 stations, half of which require significant repair or 
replacement. Our power substations, we have 19 of them. The 
useful life is generally 30 years. We have 16 of the 19 over 75 
years old.
    And our rail cars, current average rail car fleet is 40 
years, and we currently have an order to replace one-third of 
the fleet. But even after they are delivered, the remaining 
two-thirds will be 35 years old.
    Philadelphia is rich in history and is proud of its 
numerous historical sites. However, we are not especially proud 
of the historical transit assets. We thank you for the 
opportunity to speak and, on behalf of APTA, thank you for your 
leadership and your recently announced authorization proposal.
    Ms. Edwards. Thank you, Mr. Casey.
    Mr. Penrod?
    Mr. Penrod. Thank you, Madam Chair. My name is Brad Penrod, 
the Executive Director at the Pittsburgh International Airport, 
which handles 8.7 million passengers per year, and the 
Allegheny County Airport, our general aviation facility. I am 
here today representing the Airports Council International 
North America. I would like to thank the Committee for the 
priority you have placed on aviation this year, including the 
passage of the multi-year FAA reauthorization, which included 
an increase in the passenger facility charge to $7.
    The Committee's decision to distribute $1.1 billion in 
stimulus funding using the FAA's AIP process has proven to be 
very successful. It explains why the FAA was able to report, on 
June 5th, that all $5 million of the $1.5 billion has been 
authorized. As Vice President Biden noted in March, this money 
will create new jobs now, but it is also an investment in the 
long-term safety of airports and their economic viability.
    At the Allegheny County Airport, the $2 million in stimulus 
monies will be used to renovate parts of four taxiways and 
reconfigure aircraft aprons that will allow us to build new 
aircraft maintenance facilities and the associated ramp space. 
Construction is scheduled to begin the week of July 20th and, 
when completed, we will be able to make space available for the 
construction of much needed aircraft maintenance hangar 
facilities. So we are not only creating 40 new construction 
jobs now; we are also setting the stage for future jobs in the 
aircraft maintenance and operations field.
    The $10 million stimulus project at the Pittsburgh 
International Airport will rehabilitate Runway 14-32, one of 
our four runways used by military and commercial flights. This 
funding will be utilized to rehabilitate airfield pavement, 
make grading improvements, update pavement markings, airfield 
signage, and lighting systems. Notice to proceed is expected in 
September and will create 207 jobs.
    One point this Committee made clear was that Recovery Act 
funding was to be for projects that were shovel ready. I am 
very pleased to be able to report that many airports across the 
Country have their shovels in the ground.
    At the Sarasota Bradenton International Airport, they have 
completed all but some electrical work on the $2.3 million 
overlay of Runway 4-22, creating 42 direct jobs.
    At San Francisco International Airport, they have completed 
a majority of the repaving construction last month of a $5.5 
million rehabilitation of Runway 28R-10L, the airport's 
largest, thus creating 90 jobs in the Bay Area.
    At Tampa International, work on their Taxiway B 
Rehabilitation Bridge and Service Road will be putting an 
estimate 600 people to work.
    The Detroit Metropolitan Airport has begun their $15 
million project to support the construction of Runway 9L/27R, 
which will create an estimated 225 new local jobs. Work began 
last month at Chicago O'Hare on a $12.3 million project, Runway 
10/28 and Taxiway M widening adjacent to the runway, creating 
50 direct jobs.
    There are also a number of projects scheduled to come 
online over the course of the next four weeks.
    The Kansas City International Airport in Missouri will 
start work on a $4 million runway rehabilitation project, 
creating 50 direct jobs.
    At Oakland Airport, $9.7 million work on East April Phase 
III project will incorporate ramps, taxiways, and overnight 
parking spaces for aircraft.
    San Jose International Airport's $5.2 million project is 
part of a larger effort to rehabilitate Taxiway W, which the 
FAA's Regional Safety Analysis Team recommended be addressed 
due to potentially unsafe general aviation aircraft movements. 
This funding has moved the project forward by four years, 
creating 83 new jobs.
    The Fresno Yosemite International Airport will create 28 
new jobs next month, when work begins on a $2.2 million project 
to reconstruct connecting taxiways.
    The Recovery Act also exempted private activity bonds from 
the alternative minimum tax. Airports rely on bonds to finance 
53 percent of their capital needs for safety, security, and 
infrastructure projects. Last August, the bond market dried up, 
and this change has allowed airports to find bond buyers again. 
The Metropolitan National Airport and Miami-Dade Airports have 
sold bonds for new terminal projects. The Metropolitan 
Washington Airport Authority has sold bonds to assist in their 
capital construction program.
    In terms of airport infrastructure, there is no doubt that 
the AMT provision has had a stimulating impact on short-and 
long-term projects.
    In closing, the $1.2 billion appropriated for airports in 
the American Recovery and Reinvestment Act and the AMT relief 
is creating much needed jobs today across the Country, while 
investing in the infrastructure necessary to address the future 
of a safe and efficient aviation system, and I thank you.
    Ms. Edwards. Thank you, Mr. Penrod.
    Mr. Keating.
    Mr. Keating. Thank you. Representative Edwards and 
Committee, my name is John Keating, and I am President and 
Chief Operating Officer for Oldcastle Materials East. Today, I 
am testifying on behalf of Oldcastle and the American Road & 
Transportation Builders Association.
    First, I would like to express our appreciation for this 
Committee's leadership in ensuring the American Recovery and 
Reinvestment Act included a major transportation infrastructure 
component. Thank you.
    My Chief Executive Officer, Doug Black, and ARTBA's Vice 
President of Economics, Bill Buechner, told this Committee last 
October that increased transportation infrastructure investment 
from an economic stimulus package would be put to work quickly 
and produce meaningful economic benefits. Today, it is my 
pleasure to report on how these commitments are being 
fulfilled.
    States have obligated $14.7 billion of the Recovery Act's 
highway funds as of June 16th. This amount is about $5.5 
billion more than is required to be obligated by the June 30th 
deadline. We expect outlays to continue to increase as we move 
into the summer and fall construction seasons.
    Furthermore, the value of new contract awards for highway 
and bridge projects outpaced 2008 levels for the first time 
this year in the month of May. That is exactly what we hoped 
and wanted to see, the State and local transportation agencies 
began awarding Recovery Act projects.
    Let me share with you a few examples of how the Recovery 
Act is stimulating our economy.
    One of Oldcastle's companies, Pike Industries in Northern 
New England, has been awarded $105 million worth of projects in 
the three States it operates. Much of this work is underway or 
will begin soon. In New Hampshire, after several early jobs had 
begun, Pike decided to hold a job fair in Concord, advertising 
up to 50 jobs. Over 400 people showed up. Pike filled these 
positions and is expecting its stimulus work to save or create 
as many as 250 jobs.
    Another great story within the Pike example involves a 
project taking place right now in the State of Maine. Last 
year, we were fortunate enough to rebuild a large section of I-
295. This year, the Maine DOT entered its fiscal season with 
the understanding that it would not have the funds to support 
the sister project in the northbound I-295 barrel. As a result 
of the Recovery Act, this project has been able to move 
forward.
    As a result, with great coordination between the DOT and 
the contracting community, this project has been advertised, 
bid, awarded, and will be completed by mid-August. It is a 
pretty significant job, involves 23 miles of roadway that are 
completely rebuilt and repaved. All this construction will take 
place in 120 days. The other nice thing about this project is, 
at its peak, it will support 350 jobs in the State of Maine.
    ARTBA members in virtually every State are reporting 
similar experiences. We will see even greater benefits in the 
remainder of the year and in 2010, when most of the stimulus 
funds hit the market.
    That said, in assessing the Recovery Act's success, we must 
acknowledge a hard reality. The Federal programs are only one 
part of the overall transportation market. Virtually all 
States, counties, and municipalities are facing budget 
challenges, and many were required to delay their own 
transportation investments before the Recovery Act was ever 
signed into law. As such, the Recovery Act's transportation 
investments are largely serving to protect existing jobs.
    While keeping transportation programs afloat may not 
generate headlines, I can tell you from personal experience a 
saved job means a great deal to the people in the real world.
    The transportation stimulus investments are the first step 
in a critical two-part process. To build on the Recovery Act's 
gains, Congress must enact a robust, multi-year reauthorization 
of the Federal surface transportation program. The best way to 
undercut the progress being made by the Recovery Act is to put 
the reauthorization debate on hold for 18 months. My written 
testimony describes how uncertainty stemming from the 
reauthorization delays in 2003 and 2004 contributed to a 
stagnated U.S. transportation construction market.
    While the Recovery Act provides a much needed short-term 
infusion of resources, a long-term bill will inject stability 
in the overall marketplace by establishing investment levels 
and a sustainable financing approach. When companies like 
Oldcastle have this type of long-term indicator of future 
investments, it enables us to make the capital investment 
decisions that have an even greater economic multiplier effect 
throughout many sectors of our economy. To that end, we commend 
Chairman Oberstar, Representative Mica, and the entire T&I 
Committee for moving forward with a multi-year surface 
transportation bill.
    Thank you for allowing me to testify today and tell 
Oldcastle's and ARTBA's story, and I look forward to any 
questions. Thank you.
    Ms. Edwards. Thank you, Mr. Keating and thank you to each 
of you both for your testimony and also for your patience this 
morning.
    I just have a couple of questions. Mr. Brown, you said in 
your testimony that Mississippi had obligated 80 percent of its 
apportioned funds for highways and bridges, and plans on 
letting 165 contracts using Recovery Act funds. How soon after 
funds are obligated do you expect that contracts will be let, 
and how soon after the contracts are let can we expect work to 
get underway, that is, people to get on a job?
    Mr. Brown. Madam Chairman, maybe I didn't make myself 
clear. I apologize if I didn't. Those numbers, percentages I 
gave to you are going to contract. Those are actual contracted 
jobs. All of our contracts will be finished and on the street 
and ready for going to work, literally shovel ready and now 
shovel activity beginning within 30 days of the day we let the 
contract. That would be the time that we would give a notice to 
proceed. So, certainly by the end of August of this year we 
will be fully contracted and fully at work on all of our 
stimulus funds.
    Ms. Edwards. And is part of the reason for that, like in my 
State of Maryland, that you had a number of these projects 
sitting there, engineering done, environmental work done, all 
of it just waiting for the resources to be able to put people 
to work, so it wasn't complicated for you to be able to let 
those contracts and then get the work started right away?
    Mr. Brown. No, ma'am, not at all. You are right on target. 
We first identified, oh, I guess, probably--I will try to 
resurrect the number, but probably somewhere in the range of 
$800 million worth of work, and then anticipating a much larger 
stimulus package, quite frankly, for transportation; and when 
the numbers didn't come in as high, of course, we pared down to 
the number that we have now, $354 million, including MPOs and 
the sub-allocates. We pared that number down, utilizing or 
giving emphasis to the ones that we felt were needed the most.
    Ms. Edwards. And I will just reflect that there are a 
number of us on this Committee and, of course, first and 
foremost our Chairman, who share the view that had we been able 
to put far more money into our infrastructure investment in the 
stimulus, it is not that we would have been waiting to find 
work; the work is out there to be done if the Federal resources 
are available to do it.
    Mr. Brown. Madam Chairman, if you would indulge me, I would 
just add that we were prepared--when I say we, we in 
Mississippi, but also we as an industry across the United 
States, and representing AASHTO and my other colleagues 
throughout America. I would tell you that we were prepared to 
do $800 million worth of projects in the first 90-day and then, 
of course, the subsequent 120-day. I agree with you 100 percent 
certainly there were many more projects that could have been 
put on the street but within the same amount of time.
    Ms. Edwards. Speaking on behalf of AASHTO and away from 
Mississippi a little bit, because you are a southern State, can 
you speak to the many projects that will come online from the 
States that are your represented members that may be northern 
States, where the weather didn't necessarily permit until now 
that people be put to work through these highway contracts?
    Mr. Brown. Well, I think I will answer your question in a 
different way. One of my good friends and colleagues, and the 
current President of AASHTO, Al Biehler, from the State of 
Pennsylvania, for example, was very concerned that he would not 
be able to get the bulk of his projects ready because of just 
what you said, the weather and the working condition restraints 
that he has that we don't particularly have in the south.
    But I think he has surprised himself by redoubling his 
efforts, as have the other folks throughout AASHTO in the 
northern regions and in the other climates where you have 
climate changes and problems. I think we have all been 
surprised at the efficiency of our staff, at the hard work that 
has been put in to put in these jobs on the street and putting 
people back to work.
    I think the two major things that have been embraced by all 
of us in highway transportation across the Country, and that is 
the term shovel ready, making sure that indeed everything was 
shovel ready and ready to go, and that is not an easy task, but 
we have proven that we are up to it; and the other thing is the 
commitment to create and to retain jobs. And I think every 
State, regardless of the climate from which they operate, have 
redoubled their efforts to do just that, have the projects 
ready to go, truly ready to go, and then generate the new jobs 
along with the job retention that comes with the regular 
program.
    Ms. Edwards. Thank you, Mr. Brown.
    Let me turn to you, Mr. Casey. I am so familiar with SEPTA, 
having spent a little bit of time as a youngster visiting my 
grandmother and using the SEPTA system, and I can attest to the 
work that is needed on the SEPTA system as well. But I wanted 
to ask you, just in terms of the current authorization for 
highway and transit programs that expires on September 30th, 
can you tell me how the lack of a long-term authorization for 
these programs affects SEPTA's ability to plan for capital 
improvement projects?
    Mr. Casey. Yes. Some of our critical needs are multi-year. 
I can specifically say we are completing a project now that, 
between engineering and construction, went over eight eights. 
So without a long-term project, we probably could not have 
committed those funds to get that project complete. And we have 
a number of projects that are on the drawing boards. City Hall 
Station is a major station right under City Hall that is a very 
complicated system project, will take multiple years from a 
design and also construction effort, so it is critical that we 
have a multi-year funding source that we know that those monies 
are coming in so we can commit dollars for those projects.
    Ms. Edwards. Thank you. An FTA administrator, in his 
testimony, Administrator Rogoff, mentioned that several SEPTA 
projects are being assisted by Recovery Act funds, including--
correct me if I get the pronunciation incorrect, but the 
Tulpehocken Station project that appears to have a business 
development component to it. Can you tell us a little bit more 
about that project and how it benefits SEPTA?
    Mr. Casey. I submitted copies of some of the projects, 
pictures of some of the projects with my testimony. You can see 
Tulpehocken Station. I don't think any person would even go 
near that station or in this station in its current condition. 
But it is critical that we have facilities that our passengers 
want to use and would encourage them to use the system and they 
can feel safe on the system. Tulpehocken Station also has the 
ability for transfer for bus routes, so they can take the bus 
to Tulpehocken Station, then take the train into downtown 
Philadelphia. And a number of stations, I mentioned Croyden 
Station earlier in my testimony. That would also have that 
ability to multi-transit purposes.
    Ms. Edwards. And there is economic development activity 
that goes around those transit stations?
    Mr. Casey. Yes. Where possible, we are looking at economic 
development. As everyone knows in the public transportation 
world, if you have public transportation, it increases the 
value of the real estate around those stations.
    Ms. Edwards. Thank you. I will note also in your testimony, 
Mr. Casey, you also spoke about the importance of being able to 
pare off some operating funds so that you wouldn't have to make 
other kinds of cuts in the system. Can you speak to that?
    Mr. Casey. Yes. SEPTA is not in the situation that some of 
the other transit agencies are; we have multi sources of funds, 
so it is not in one egg basket, if you will. Some of the other 
agencies are relying heavily either on the sales tax or the 
realty transfer tax that have really taken a hit in the last 
year, and because it is a solo funding source, they are really 
being impacted. You can read almost on a daily basis across the 
Nation all the major transit agencies are having some type of 
budget deficiencies.
    Ms. Edwards. Thank you.
    Mr. Penrod, I appreciate in your testimony when you 
describe particular projects, you also describe the direct and 
indirect jobs, actual jobs that are being created using the 
Recovery Act funds. I think it is important for us to kind of 
keep our eye on that, especially in some of our States that are 
facing really tremendous unemployment.
    Also in your testimony you cite the Detroit Airport project 
that was accelerated from two years to one year; and the San 
Jose Airport project that was moved forward by a full year; and 
the Fresno Yosemite Airport projects, which were completed in 
half a year instead of in two years and another move forward by 
yet another two years. I imagine that this acceleration of 
construction has had a beneficial effect in terms of keeping 
project costs down, so I wonder if you could comment on that 
and also on what airports are doing to replenish the pipeline 
of planned projects.
    Mr. Penrod. Thank you, Madam Chair. The acceleration or 
making a two-year project a one-year project certainly saves 
significant amounts of money and mobilization and winter 
shutdowns in certain northern tier locations where you have to 
shut down in the winter time. So any time you can shorten a 
construction period on an airfield, you significantly decrease 
costs because of the reduced mobilization.
    But you also significantly increase safety levels just 
because, if you have multiple construction projects, any time 
you have construction projects in vehicles and aircraft, there 
is a significant safety component that goes into that planned 
development. So anything you can reduce the safety exposure to 
in shortened project times, everyone wins in that respect.
    I think from projects on the shelf, you will, like any 
other infrastructure operator, which airports are, certainly, 
people expect airports to be the most safe piece of 
infrastructure that they use. So the fact that, at least in our 
case in Pittsburgh, and I would expect my colleagues across the 
Country, we have multiple projects on the shelf on a regular 
basis.
    Going into the discussions of a stimulus package just in 
Pittsburgh, we had $200 million worth of projects to talk 
about, and we are very pleased with the two projects we got, 
because those were actually our number one and two projects. 
But the shortage of PFC-funded levels in Pittsburgh has caused 
us to defer over 20 projects over the next couple years, so we 
have an abundance of projects on the shelf ready to go, and I 
would expect my colleagues across the Country are in the same 
position, so we welcome future opportunities.
    Ms. Edwards. Thank you. Just as we close out with questions 
for you, Mr. Penrod, you pointed out the airport improvement 
program is currently operating also under a short-term 
extension through September 30th, 2009, and I would appreciate 
it if you would comment on how the lack of a long-term 
authorization for this program affects your and other airports' 
ability to plan for airport development projects. I would 
imagine for airports this is a pretty critical question.
    Mr. Penrod. It is very critical. A runway could have a 
three-to five-year construction time line, so certainly a 
funding stream that expires at the end of September is a 
significant concern if you are trying to contemplate what to do 
in the fall in a couple years. So certainly a longer term 
program allows us to better plan whether it is economies or 
phased approaches, but also the interference with air traffic 
and, again, go back to the improvement of safety, however you 
can plan that.
    There are multiple pieces of working on an airfield, 
whether it is air traffic issues or aircraft movement issues or 
construction vehicles or just the routine maintenance that we 
all do. So if we know a capital program is going to address a 
maintenance issue, we can upgrade our operating more 
efficiently as well. So certainly the long-term program will be 
a significant benefit to the industry.
    Ms. Edwards. Thank you, Mr. Penrod.
    Mr. Keating, it is my understanding that a national survey 
that was done several years ago found that transportation 
construction contractors hire employees within three weeks of 
obtaining a project contract, and that these employees begin 
receiving paychecks within two weeks of hiring. Can you comment 
on this based on your own more recent experience with Oldcastle 
Materials?
    Mr. Keating. Yes. Essentially, when the work is put out to 
advertise, depending on the workload, we may bring estimators 
in and professionals onboard well before we even secure the 
work. Then there is no question, once we receive a contract or 
a bid award, we need to be ramping up to supply the workforce 
for those projects. So it is actually much quicker. And, 
obviously, once they are on our payroll, they are receiving 
paychecks on a weekly basis.
    Ms. Edwards. And then from one contract to the next, if you 
are in an environment where there is longer term planning, 
would you just lay those workers off, or do you keep them on 
and then move them to another project, or do you hire new 
workers? How does that work?
    Mr. Keating. It is very critical to have a long-term plan 
out there and knowing what the funding levels are. Our company 
is involved in both heavy highway construction type work, as 
well as maintenance work. Typically, maintenance work you are 
building a staff that will service multiple jobs over the 
course of a year, and that is really dictated by the amount of 
work that is put out by the individual agency, so we would move 
from one project to another on a regular basis with a steady 
workforce.
    Ms. Edwards. Thank you. Then, Mr. Keating, you also make a 
point when you say that outlays are a lagging indicator of 
highway construction. So the Federal highway program actually 
operates on a reimbursable basis, it doesn't outlay funds until 
the work has already been performed, and a State seeks 
reimbursement, then, for the work after it is laid out.
    I am interested in more leading indicators that your 
association tracks, such as the value of new contracts awarded 
and employment in stone mining and quarrying. You spoke to some 
of that, I think, in your testimony and you state that job 
growth in stone mining and quarrying was stronger than normal 
in April. Can we expect from this finding that highway 
construction employment will see significant growth, then, 
beginning in June and July, since it is a lagging indicator?
    Mr. Keating. I think we are already seeing that. As these 
projects have come out, we have got people to work now. I mean, 
you are exactly right, it is a reimbursement program. We will 
go to work today and work on multiple phases working for a 
State DOT. They will approve our work and pay us after the work 
is complete, and then they will get reimbursement from the 
Federal Government.
    From what you see from the feds down to the State, as far 
as their outlay of funds would lag significantly to where the 
work is actually being done. We are bringing people onboard 
now, as I said in several different cases in our testimony, and 
bringing back existing workforce as well as new hires in some 
parts of the Country, so there is no question the leading 
indicator is now.
    Ms. Edwards. Excellent. Then, I wonder if you could speak 
to a question that was raised earlier by myself and Ms. 
Richardson, and that is to the States' and contractors' ability 
to meet DBE goals. This is a particular concern especially in 
places where there are significant pockets of unemployment or 
underemployment. And I wonder if you could also speak to 
whether you believe there are any barriers to reaching out to 
small minority women-owned business perhaps even as 
subcontractors on some of these projects.
    Any of you.
    Mr. Brown. Madam Chairman, I would like to take the 
opportunity to reply to that. It is interesting, I had made 
some notes as you were speaking earlier. Obviously, we are 
using the same DBE goals that we use in our regular program of 
work in our expanded role using stimulus funds.
    But one of the things that we have done is we have 
discovered that stimulus sparked a great deal of interest on 
the part of DBEs. Traditionally--and I think this is somewhat 
universal across the Country--you will have a large DBE pool, 
but a very small portion of those DBEs are active in the day-
to-day bidding and participation into the DBE process.
    So what we have embarked on in Mississippi is to expand the 
pool, obviously, but, moreover, to expand those active 
participants within the pool of DBEs that we have. Stimulus 
discussions brought a great deal more interest, and that has 
helped us, because what we did with that renewed interest from 
the existing DBE pool, we did a tremendous outreach effort 
where we brought in all of our DBE participants and we brought 
in our contractors at the same time that were being required to 
have the DBE participation. We have had seminars, we have had 
training, we have had staffing assistance programs put into 
play, as well as the contractors speaking directly to the DBEs, 
rather than us as the owner of the project, so to speak. The 
contractor steps straight forward, and you would be surprised 
how expanded it has gotten.
    The other interesting component that we added into our DBE 
program as a result of the stimulus program was the fact that 
we now, in the smaller cities and the small urban areas where 
the cities themselves don't have the staff or the wherewithal 
to keep up with the reporting and with the documentation 
dealing with stimulus funds, or regular funds, as far as that 
goes, we have added consultants, DBE consultants to assist them 
in their reporting and record-keeping requirements, and we 
assist that consultant and the city as well.
    We are very proud of what we have been able to do in 
Mississippi. I am sure we are not alone in doing this, because 
this is discussed every time we get together in an AASHTO 
situation.
    Before I leave, I would like to make an additional comment, 
if I could, Madam Chairman. On your questions, you were very 
interested in the 18-month short-term provisions for funding, 
as opposed to a full authorization. Let me just offer this for 
whatever it is worth.
    I personally, speaking for Mississippi, favor a full 
authorization, obviously. I think if indeed Congress does do an 
18-month what I would call a continuing resolution, what others 
may call it, I don't know, but the 18-month provision versus a 
full 6-year authorization, I think for the same reasons 
advocated by Chairman Oberstar and Congressman DeFazio earlier 
in his comments, because of planning, because of advertising, 
because of construction time issues, obviously, we need more 
time.
    If indeed we don't get the full authorization, Madam 
Chairman, I would hope that this Committee would take a strong, 
strong stance in position that when authorization does come, a 
6-year authorization comes, that it will be from and after 
passage for six years, not what we are having to deal with in 
the past, where we are spending three years to get a 6-year 
reauthorization.
    The same problems exist that this panel and the previous 
panel espoused this morning, of not having enough time for 
adequate planning. Doing all the things that are necessary to 
build a program in a three-year authorization, that is very 
constraining in itself. So from and after passage on a 6-year 
bill would be something that I think our industry would really 
appreciate.
    Ms. Edwards. Mr. Brown, you have been heard loudly and 
clearly, and thank you for that.
    Listen, we have been called for a vote, so I thank you for 
your testimony and for your time. I would just close by saying 
if any of you have any recommendations particularly around DBE 
participation and ways to encourage that, I know that this 
Congresswoman would be really grateful for your insight there 
and for any lessons learned out of this stimulus funding; and 
keep letting contracts and hiring workers.
    I understand, in fact, if you would hold tight until after 
this vote, we are going to pull this panel into recess, and I 
believe Chairman Oberstar will be coming back. So we will stand 
in recess until 10 minutes following the vote.
    [Recess.]
    Mr. Oberstar. [Presiding] The Committee will resume its 
hearing.
    The Chair apologizes to Members--Members who are all gone, 
actually--and to our witnesses for the long absence due to 
recorded votes on the House floor passing a defense 
authorization bill which is substantially greater for one year 
than we are proposing for six years for the surface 
transportation program.
    I took the testimony home with me last night and, even 
though we didn't finish up until 11:00, I speed read the 
witness testimony statements and am very impressed with your 
presentations. A question I have, Mr. Brown, there have been 
some questions or criticisms--I think not well informed 
criticisms--that there have been obstacles to moving ahead with 
projects, and I would just like to know if you have any 
specific paperwork or other obstacles you have encountered in 
pursuing the funding and carrying out the program of the 
Recovery Act.
    Mr. Brown. Mr. Chairman, I am somewhat surprised by the 
question because, honestly, speaking first for Mississippi, I 
will tell you that we have had none. We, of course, have heard 
some of the ruminations about the reporting problems and 
demands that you referred to earlier in the day, but we have 
not had those either.
    I think one of the good things that came from Hurricane 
Katrina, if anything good can come from a natural disaster like 
that, was that it did prepare the State of Mississippi and our 
staff for reporting. As you might imagine, sir, when Katrina 
hit, the money came with no strings attached, with no reporting 
data or requirements or anything else; and I am sure that is 
somewhat of an exaggeration, but I think you see my point. As 
we move further into recovery, we got more and more requests 
for data, more and more requests for reporting and 
transparency.
    And I think one of the things that, if anything, that I was 
able to do for my colleagues at AASHTO was to tell them that 
story way back last year, that there would be reporting 
requirements that we hadn't heard of yet. And I think, for the 
most part, our industry and the people that I know, my 
colleagues at AASHTO, while they talk about the reporting 
issues and auditing issues and the GAO and the Inspector 
General's Office coming by and stuff like that, I don't think 
it has been a problem. I think it is expected and anticipated 
when you do get these extra funds, whether they come from 
emergency and/or stimulus projects.
    To answer your question, no, sir, we have not had any, and 
I don't have any real knowledge of others.
    Mr. Oberstar. That is very encouraging to hear. I said 
earlier in the hearing that, at the very outset of this process 
of structuring a stimulus bill, when we proposed it in this 
Committee room in December of 2007 and then in January of 2008, 
and then in August we held a hearing and in September we had 
another hearing and said we would insist on reporting, 
openness, transparency.
    These are 100 percent Federal funds and the public should 
know what is happening with the dollars, how the projects are 
being implemented, where they are going, and the jobs created. 
That is not awfully burdensome, it seems to me. Those are 
pieces of information you gather and collect and report 
internally, at least, and have to report to--except for the 
jobs; they don't have to report jobs to the Federal Highway 
Administration.
    Mr. Brown. Well, Mr. Chairman, I think it is important to 
note that in the stimulus funding itself it provides for funds 
to do that reporting, to do that data collection and to make 
those submissions. There is no excuse for not having 
transparency in utilizing these funds.
    Mr. Oberstar. That is correct. I am glad you noted that, 
because I was about to point that out. Something I said, in 
exchange for funds reporting, we should allocate funding for 
States to cover any additional administrative costs associated 
with reporting.
    Mr. Casey, would you like to comment on the same subject?
    Mr. Casey. I would just echo Mr. Brown's response in that 
regard. We haven't really had any problems and, for the record, 
I would like to commend FTA Region 3 for promptly approving our 
projects. If you look at my testimony, 70 percent of the 
dollars have already been awarded through May, and we 
anticipating awarding 100 percent through the end of the 
calendar year. And, again, FTA Region 3 has been extremely 
cooperative with us to help us get these projects moving.
    Mr. Oberstar. Mr. Penrod?
    Mr. Penrod. Thank you, Mr. Chairman. Just as our colleagues 
have said, I think certainly from my personal experience in the 
aviation and airport business, we have a very robust FAA AIP 
program. We track very closely our local share. Our typical 
routine AIP programs are tracked and audited very closely, so 
this was just another opportunity to put, in our case, $12 
million of your money to good work and was not problematic, and 
from other airports across the Country has not been either. So 
100 percent funds means something, and 100 percent 
participation and support is the least we can do.
    Mr. Oberstar. Very good. Thank you.
    Mr. Keating, I have to compliment Oldcastle and your 
associates in sand, gravel, stone, aggregate business. From the 
time that the bill passed the House, your associates and you in 
particular were already moving ahead, seeing that this package 
was coming along, was going to pass, started readying your 
facilities to be in compliance, and I want to compliment you 
for that.
    Mr. Keating. Thank you.
    Mr. Oberstar. Your view on the private sector response to 
the recovery and any reporting requirements that you think may 
be burdensome?
    Mr. Keating. We don't see it. We are getting contracts. The 
authorities are out there bidding work. We are getting 
contracts awarded. We are out there performing on these 
contracts and we are getting paid. So the process is working 
and, from our perspective, thank God we don't have to deal with 
the red tape that everybody else is, but moving along just 
fine.
    Mr. Oberstar. Good. So it is a very positive report and I 
am very pleased. I anticipated that, but I am very pleased that 
it is happening.
    Commissioner Brown, we anticipated that States would be 
ready to move because we designated only those projects that 
were designed, engineered, EIS completed, right-of-way 
acquired, down to final design and engineering, and our 
anticipation is that those would be sort of off-the-shelf, 
ready to go. Fifty-four percent of the funds have been actually 
obligated or under contract. Throughout AASHTO's network, what 
proportion do you think is going to go out in the next four or 
five months? By going out, I mean be under contract.
    Mr. Brown. Well, I think that is an interesting distinction 
you make because that is the one we use in Mississippi. Rather 
than obligated, we say to contract, because when we take them 
to contract, less than 30 days later we do notices to proceed; 
and I think that is what you and the stimulus package together 
wanted the States to do, and that is to get projects under 
contract and put people to work, and that is the kind of data 
that we keep.
    Right now, in Mississippi, we are only about $50 million 
away, and we will issue those notices to proceed and contracts 
in July, and we will be 100 percent. Right now it is over 80 
percent.
    Nationally, we have some excellent history, places like 
Arkansas, for example, 48 out of their 51 projects are 
underway, and they are also in 84 percent, to use that number, 
in distressed areas. That is another component that we are 
watching carefully, is making certain that economic development 
numbers are kept, associated with stimulus dollars, as well as 
job creation.
    In Arizona, for example, 60 percent and 40 percent of the 
highway economic recovery funds will be directed to those 
distressed areas as well. So we are not only watching how many 
projects have been let; we are also watching the results of 
those lettings. But I think nationally right now--and I have 
got staff here to kick me in the back, but I think it would be 
probably approximate today somewhere around 60 percent being 
contracted.
    Mr. Oberstar. Overall?
    Mr. Brown. Overall, I think, yes, sir. Is that a good 
number? Mr. Basso is the resident expert, and he says it is a 
good number. If he believes it, I do too, sir.
    Mr. Oberstar. Let the record show that Jack Basso vouched 
for 60 percent. He is the numbers man.
    [Laughter.]
    Mr. Brown. You notice, Mr. Chairman, I blamed it on him, 
and thank you very much for noting that in the record.
    Mr. Oberstar. He says he can take it to the bank, I know 
that over all the years.
    You are kind of anticipatory. Really good. I wanted to ask 
whether our provisions in the legislation to have equitable 
distribution of the dollars throughout the States and priority 
consideration--not requirement, but priority consideration--for 
areas of highest economic distresses measured by EDA. Probably, 
in Mississippi, you have no trouble with that because the 
effects of the hurricanes have made all of Mississippi a 
distressed area.
    Mr. Brown. Well, Mr. Chairman, just by the name of 
Mississippi, you know, you got the river and we got the name, 
we like to say down south. But the eyes of the Country are 
always on Mississippi, and for that we have been very 
proactive, and I am very proud of the things that we have been 
able to do in our State not only in transportation, but in 
other areas of government and governmental services.
    But our focus is always to do projects and to excel in 
project delivery in economically distressed areas. One of the 
greatest achievements we have in our State is what we have been 
able to do since the mid-1960s all the way to the beginning of 
this new century and the achievements that we have made. Our 
program of work is designed around, now, two things: capacity 
needs and economic development. Those are the only two criteria 
we use now in assessing a highway project in the State of 
Mississippi.
    Mr. Oberstar. In the construction business, it is somewhat 
unique, unlike an iron ore mine or a factory of one kind where 
the jobs are local. In the construction sector, the building 
trades workers travel from one site to another, following their 
employer, the contractor as they bid. Have you seen movement 
throughout Mississippi, the people from the southern part of 
the State working in the northern part of the State? Is that 
happening in other States as well?
    Mr. Brown. In Mississippi, again, using that that I am most 
familiar, I will tell you that when Katrina came, for example, 
and that infusion of capital construction personnel and 
equipment and companies, contractors all made that rush. Now, 
because of the balanced program that we are doing with our 
regular program letting, coupled with our stimulus funds and 
having it balanced statewide, we are not seeing that migration. 
But what we are seeing is a better employment picture in every 
region of our State.
    And I think, from what I have heard from my colleagues, I 
think that probably throughout America you have seen a 
distribution, a balanced distribution of stimulus funds, which 
cuts down on the migration of the workforce; it keeps it more 
regionalized and localized for the use of those people as they 
work for those contractors.
    Mr. Oberstar. That is very interesting. It is very 
important to know that. Now, as you work through these projects 
that are committed--and, Mr. Keating, you will see this in 
members responding to bids and the work of contractors--you 
will have worked out some proportion of the ready-to-go--not 
all of them, not all of the projects that you have, because I 
know at the outset AASHTO had a list of 11,000 or 12,000 
projects for us in mid-summer 2008. That number has been 
refined down much more narrowly as we got to the actual number 
that is a funding amount in the bill. But behind that is sort 
of a second tier, isn't there, of projects among your 
colleagues across the Country, of projects in that category 
that are not quite shovel ready but ready to be put out to bid?
    Mr. Brown. Well, Mr. Chairman, you will remember, of 
course, because you were an integral part of all this, that the 
original list of projects shovel-ready and ready-to-go that 
were submitted by AASHTO were well, well, well beyond the $26 
billion package that passed for transportation. I would say 
probably two or three times that number projects ready to go.
    So not only do we have that second tier that you are 
referring to, those that are evolving every day, where we are 
getting beyond the environmental document, beyond the right-of-
way acquisition, utility relocations, and all of those items 
that must take place before a project moves to shovel-ready, 
before that we still have an abundance, every State in this 
United States has another group of projects ready to go that 
weren't funded in this first round of stimulus with the other 
projects, as you say, in that second tier evolving every day.
    Mr. Oberstar. Well, I raised that question because the time 
is coming fairly soon, in the next six, eight months, that we 
will be at the peak of investment and contracts will have been 
committed to the total sum of that $27 billion, and States will 
have been working their way through the recovery funds and will 
need a follow-on program.
    Mr. Brown. Mr. Chairman, we gave testimony earlier, while 
you were absent, and my colleagues and I all share the same, I 
think, I am not going to try to speak for them, but in your 
absence it was made abundantly clear, I think, by this panel--I 
shouldn't say that. It was made abundantly clear by my comments 
that if indeed there is a short-term fix, this proposed 18-
month fix, then whatever comes beyond that needs to be from and 
after passage so that we can get a 6-year term.
    It is impossible for a department of transportation and our 
colleagues in the industry like Oldcastle--we use their 
subsidiaries in our State regularly, and I will tell you it is 
impossible for us to plan and for us to give them data and 
information that prepares them for future work when we don't 
know about the status of our funding, the availability of the 
funding. And we can't operate on short terms and on promises; 
we need a firm, dedicated source revenue stream for an extended 
period of time, not like the one we just came out of, where it 
took three years to get us to a bill for six years.
    Mr. Oberstar. Mr. Keating, give us your thoughts about the 
short-term proposition advanced by the Administration and the 
effect that short-term financing will have upon the industries, 
you and your colleagues, not just sand and gravel, but asphalt, 
cement, and the cement part of Ready Mix.
    Mr. Keating. One key area is just capital investment. I 
mean, we are always looking ahead for technological 
improvements, plant and equipment replacements. If there is no 
forecast out five, six years, there is no way to really justify 
an investment; you are not going to get the payback. If we are 
dealing with it on such a short period of time, we won't be 
investing in equipment with companies like John Deer and 
Caterpillar or Aztec Industries on new plants for asphalt 
plants or Ready Mix plants; process machinery industry. It all 
kind of goes to a screeching halt; it just gets stagnated.
    In addition to that, the work is kind of paring down. We 
all know the economy and the state of the economy today, and we 
don't see an immediate recovery in the private commercial 
sector. You are going to see a peak of employment with road 
activity and then it is going to end, and then you are going to 
go back to the level funding----
    Mr. Oberstar. When do you think that peak will arrive, our 
next spring, this time next year?
    Mr. Keating. Very well could, yes. Very well could. And 
then you are going to enter the next construction season, which 
is primarily the summer and fall months of 2010, where that 
work will be tapering off, we won't be seeing a private sector 
recovery, in our minds, and then you are going to just see all 
these jobs that I believe we have been protecting and that the 
stimulus has done a very good job of protecting and securing 
existing jobs, that is going to lead to layoffs next summer and 
fall if there isn't some sort of a fix.
    And you really need to think long-term. I totally agree 
with Secretary Brown, five, six years is a very good horizon. 
We can plan, as an industry, with our capital investment plans. 
The States can plan very effectively with what their master 
road and bridge program will be that addresses both the 
maintenance needs of the State, as well as whatever capacity 
expansion needs of the individual States. When you have that 
all kind of drawn out, we know what to expect. We still need to 
be low-bidder on the projects we bid, but we know what to 
expect and can plan accordingly, as they can. An 18-year fix 
does not help us at all.
    Mr. Oberstar. Eighteen month.
    Mr. Keating. I mean an 18-month fix.
    Mr. Oberstar. That is music to my ears, but I wanted to 
hear it straight from you.
    Commissioner Brown, you have seen in broad strokes the 
proposal for project expediting, an office of projecting 
expediting in the Federal Highway Administration that I crafted 
and is in our bill, and we have had bipartisan agreement on, 
with some touches yet to come. What are your thoughts? What are 
lessons from the stimulus, if any, that can be applied to the 
future transportation program?
    I want Mr. Casey and Mr. Penrod to think about those as 
well.
    Mr. Brown. If you will indulge me, Mr. Chairman, I will go 
back to Katrina once again; it was my first experience in 
expediting projects. The Federal Highway Administration, when 
Katrina came, was on the scene with me, holding my hand, both 
with the State Administrator and Federal Highway Administrator, 
Rick Kapka. They were there, hand-in-hand with me, shoulder-to-
shoulder within three days after that storm, and I will tell 
you that everything that came from that storm was in an 
expedited mode.
    Now, whether or not there was any sort of an expedite 
division available at Federal Highways, it proved one thing, 
and that is that Federal Highway Administration can expedite. 
And the stimulus package comes along and we find out that we 
have got to have projects ready to go in 90 days, shovel ready 
to go to contract in 120 days with benchmarks along the way; 
and every one of those benchmarks and every one of those 
conditions have been laid out there through Federal Highway 
Administration, working with the Departments of Transportation, 
so, indeed, there is a way and a reason for an expedite 
division, if you will.
    The other area that needs focus, in my opinion, if you will 
bear with me, is an office of freight and a national freight 
policy. We are no longer building highways for automobiles in 
this Country; every roadbed that we build today is built for a 
heavy truck. It is built for freight; it is built for an 
intermodal system, and we don't have that national freight 
policy that is desperately needed.
    Mr. Oberstar. In our legislation, we create a council on 
intermodalism, an undersecretary for intermodalism, require the 
modal administrators to meet monthly to develop a national 
strategic investment policy, a national safety policy, and to 
oversee the development of a freight goods movement policy.
    You know, I have served in the Congress, first as a staff 
member and then as an elected Member, beginning in January 
1963. My predecessor, John Blotnik, whose portrait over there 
in the corner, was, in 1966, Chair not only of the Rivers and 
Harbors Subcommittee of then Public Works, but also the 
Executive and Legislative Reorganization Subcommittee of 
another Committee; and that is the one that handled Johnson's 
request to create a Department of Transportation, to combine 34 
agencies of government that had something to do with 
transportation into a Department of Transportation.
    He said we are the only industrialized nation that does not 
have a department of transportation. We started in January and, 
working with the White House, with the Senate, had a bill to 
the President's desk in October. He signed the bill. Alan Boyd 
was the first Secretary of Transportation, January of 1967.
    Do you know, it hasn't worked as we intended. The bill 
created these modal administrations, and they haven't so much 
as sat around the table and had coffee with each other in 40 
years. We have to change that. We have to put them to work, 
give them an agenda, make them meet monthly. Not their sub-
alterns, but the administrators.
    They have an agenda that will include, as I said, a 
national strategic investment plan for our surface 
transportation programs in coordination with and cooperation 
with the States; a national strategic safety plan that is laid 
out in the legislation; and a national freight policy, and the 
metropolitan mobility centers and the projects of national 
significance, so that there is a national view and not just a 
little isolated view here, an isolated view there, an isolated 
view somewhere else of this thing.
    Each of the modes can learn from the other on safety, on 
goods movement. We are going to also, by the way, include in 
this council Amtrak, the Corps of Engineers, and the Coast 
Guard. They all have goods movement and safety 
responsibilities, and we need to engage them in this process. 
And your point well taken, we insist on having freight goods 
movement a part of this future of transportation.
    Now, we also, Mr. Casey, propose to greatly simplify the 
process for getting transit projects approved. What we have 
today is New Starts, Small Starts, slow starts, and no starts. 
And when I first said that, it is a little humorous, but it is 
also sad. That is the state of affairs. Now, just as we need to 
expedite highway projects and bridge projects, we need to 
expedite consideration of transit projects and compress the 14-
year period that those projects now excruciatingly go through 
down into three or so years. Have you looked at our proposal 
and seen the specifics of it? Think we can do that? I think we 
can.
    Mr. Casey. I think we have to do that. Again, some of those 
projects, especially in the Philadelphia area, we have been 
studying New Starts for a number of years, and they just simply 
can't get off the ground.
    Speaking of Philadelphia, though, our biggest need right 
now is our infrastructure. We still have an old system and we 
still have to concentrate on rebuilding our assets, our transit 
assets; not only Philadelphia, but in all the old rail cities. 
The FTA report identify a need of $50 billion to bring these 
systems up to a state of good repair. And I really want to 
commend you, Mr. Chairman, for your leadership, especially with 
the authorization proposal that you set forth. We really think 
that that will go a long way in allowing transit agencies to 
rebuild their systems.
    Mr. Oberstar. Well, we have used project expediting in 
aviation to speed up aviation projects. We included that in the 
2003 aviation authorization bill and then adapted those 
concepts to the provision 6001 of Title 23, U.S. Code in the 
current SAFETEA legislation. But have you had experience with 
the expediting procedures in aviation?
    Mr. Penrod. I think specifically on the stimulus programs, 
absolutely. But I think really where I think the industry sees 
that benefit is we know that NextGen is a great technology and 
that is a solution in the sky, but each one of those trips 
begins or ends at an airport, so, certainly, whatever we can do 
to expedite construction of additional pavements at airports is 
critical to making that technology beneficial to all involved. 
So it is a benefit to everyone because 10 to 12 years to build 
a runway is entirely too long because the demand is here today.
    Mr. Oberstar. Well, it sure is. It is astonishing to me 
that Hong Kong built an airport in the ocean, 600 meters of 
ocean depth. They blew up a mountain, crushed it, dumped it in 
the ocean. They didn't have an ACLU to object or raise 
questions about it and they didn't have environmental impact 
statements to file; they just dumped it in the ocean. Twenty-
four hours a day built the foundations up three meters above 
sea level, built two 12,500 foot runways, a terminal to handle 
90 million passengers a year, and had aircraft taking off, 
while, at the same period of time, Seattle's 8,700 foot 
crosswind runway was just getting a bulldozer on the property 
site.
    Now, that is not being competitive in the world 
marketplace.
    Mr. Keating, do you have some counsel for us on project 
expediting?
    Mr. Keating. The only counsel I would give is the sooner we 
can get everything moving, the better, because, in essence, we 
are in business to pave roads and supply the materials to the 
roads and bridges, and I think the ultimate game here is to get 
work, get it engineered, put it out to bid and then execute the 
work.
    Mr. Oberstar. Commissioner Brown, Mr. Casey, I would ask 
you and AASHTO and APTA to review our project expediting 
language and give us your thoughts about improvement that we 
might make in it. I was somewhat disappointed that, over the 
past five years, actually, four years of implementation of the 
SAFETEA legislation, that few States actually used that 
language that I crafted at great labor. But we are now planning 
something substantial for the future, transformational, and we 
need your suggestions.
    Mr. Brown. Mr. Chairman, we call it project delivery. You 
call it expediting. They are all the same. We will use your 
language from now on; it will help us in the future, I am sure, 
to be doing expediting rather than project delivery. But in 
doing that, what we want to emphasize is that we know that 
projects can be delivered in an expedited way.
    If you remember back in the former Administration, there 
was a presidential edict that was going to be called 
environmental streamlining, and we were going to do 
environmental documents faster than ever before in history; and 
out of that program came not one streamlined environmental 
document. Somewhere along the line the environmental issues are 
going to have to be addressed. I am not saying detracted from, 
but somehow there has got to be project delivery in the 
environmental process.
    It takes as much time to do an environmental document as it 
does to construct a project. I will give you an example. We 
have a bridge under construction across the Mississippi River 
that has been under construction for 10 years. It is a 
magnificent bridge. It is a cable stay bridge, a suspension 
bridge. It is magnificent. That bridge has been under 
construction for 10 years.
    In 2005, when Hurricane Katrina came, we replaced two 
bridges, a total of four miles of bridge, six and eight lanes 
each, 85 and 95 feet above the water, all constructed over 
water, and we opened both of those bridges up to traffic in 15 
months. There is a way to expedite, sir.
    One of the reasons we didn't have the problem that we have 
in Greenville, Mississippi, where we are crossing the 
Mississippi River, is that we had a categorical exclusion on 
the environmental document. We were able to go to work. We were 
able to do design, build, and go to work in construction. In 15 
months we rode cars across the Biloxi Bay Bridge and the Bay of 
St. Louis.
    Mr. Oberstar. That is a great result, just like the bridge 
in Minneapolis. Of course, it was replacing a structure that 
had collapsed. There were a great many steps in the permitting 
process that did not have to be repeated. But there was also an 
element of that project that was very important that has missed 
public attention, and that is the contractor had a facility, 
had a building near the construction site, rented for the 
period of construction, and Minnesota DOT and Federal Highway 
Administration district engineer office also had offices in 
that building, separated a corridor apart. But they walked back 
and forth daily, daily reviewing plans, discussing needs and 
cutting the time of approvals that would be required and would 
be time-consuming in other projects.
    Now, that is the kind of expediting that I want. You talked 
about hand-in-hand a moment ago. This is hand-in-hand. This is 
partnership.
    Mr. Brown. Yes, sir.
    Mr. Oberstar. And the permitting process is not only 
environmental issues, there is a whole host of other permitting 
agencies that all have a role to play. Instead of each one 
having a sequential process, we need to turn that on its side 
and get everybody in the permitting room at the beginning of 
the project so that they are all together at the end and they 
can cut that time from months to weeks.
    Take a look at our language and see if it does that.
    Mr. Brown. I will make certain that the AASHTO staff will 
look at the bill and your language, and I think we will 
probably, if you don't mind, we will reply and respond to you 
as to what we think about that language and what we would 
propose to change or to add to it.
    Mr. Oberstar. Thank you. Well, you are the practitioners on 
the firing line.
    Mr. Casey, do you have similar thoughts about the transit?
    Mr. Casey. Yes. Again, I just talked to an APTA 
representative and, so far, their review of it is very 
favorable, especially from the new simplification. But like 
AASHTO, we will ask APTA to formally respond and offer any 
recommendations, if required.
    Mr. Oberstar. Well, I want to thank you for your patience 
waiting through all these votes. These are issues that are very 
important to me, to all of us on the Committee. In closing, I 
invite your review of our bill reported from Subcommittee. It 
is a rather copious document, but I put this together on a 
couple of pages in a very simplified version. Let me see if I 
have a copy of that with me. Maybe I don't have it with me. 
Well, it is a lot easier to sketch this out in a schematic than 
to craft the legislative language to implement it.
    But we now have it spelled out, implemented in our bill. 
Here we are. So this is it. It is not an eye test, but this is 
my hand-drawn schematic of the future of transportation. I 
discussed it and reviewed it with audiences all over the 
Country, with practitioners. It took 770 pages of legislative 
language to implement it, but I think we are on the right 
track. I think we have got a good plan for the future. And we 
are going to have the financing to go along with it.
    I think we need to get this bill passed by the August 
recess and have it on the President's desk by the end of 
September, and not wait 18 months. We don't have time for a 
learning curve for non-practitioners of surface transportation.
    On those notes, thank you for your participation. The 
Committee is adjourned.
    [Whereupon, at 4:40 p.m., the Committee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T0765.088
    
    [GRAPHIC] [TIFF OMITTED] T0765.089
    
    [GRAPHIC] [TIFF OMITTED] T0765.090
    
    [GRAPHIC] [TIFF OMITTED] T0765.091
    
    [GRAPHIC] [TIFF OMITTED] T0765.092
    
    [GRAPHIC] [TIFF OMITTED] T0765.093
    
    [GRAPHIC] [TIFF OMITTED] T0765.094
    
    [GRAPHIC] [TIFF OMITTED] T0765.095
    
    [GRAPHIC] [TIFF OMITTED] T0765.096
    
    [GRAPHIC] [TIFF OMITTED] T0765.097
    
    [GRAPHIC] [TIFF OMITTED] T0765.098
    
    [GRAPHIC] [TIFF OMITTED] T0765.099
    
    [GRAPHIC] [TIFF OMITTED] T0765.100
    
    [GRAPHIC] [TIFF OMITTED] T0765.101
    
    [GRAPHIC] [TIFF OMITTED] T0765.102
    
    [GRAPHIC] [TIFF OMITTED] T0765.103
    
    [GRAPHIC] [TIFF OMITTED] T0765.104
    
    [GRAPHIC] [TIFF OMITTED] T0765.105
    
    [GRAPHIC] [TIFF OMITTED] T0765.106
    
    [GRAPHIC] [TIFF OMITTED] T0765.107
    
    [GRAPHIC] [TIFF OMITTED] T0765.108
    
    [GRAPHIC] [TIFF OMITTED] T0765.109
    
    [GRAPHIC] [TIFF OMITTED] T0765.110
    
    [GRAPHIC] [TIFF OMITTED] T0765.111
    
    [GRAPHIC] [TIFF OMITTED] T0765.112
    
    [GRAPHIC] [TIFF OMITTED] T0765.113
    
    [GRAPHIC] [TIFF OMITTED] T0765.114
    
    [GRAPHIC] [TIFF OMITTED] T0765.115
    
    [GRAPHIC] [TIFF OMITTED] T0765.116
    
    [GRAPHIC] [TIFF OMITTED] T0765.117
    
    [GRAPHIC] [TIFF OMITTED] T0765.118
    
    [GRAPHIC] [TIFF OMITTED] T0765.119
    
    [GRAPHIC] [TIFF OMITTED] T0765.120
    
    [GRAPHIC] [TIFF OMITTED] T0765.121
    
    [GRAPHIC] [TIFF OMITTED] T0765.122
    
    [GRAPHIC] [TIFF OMITTED] T0765.123
    
    [GRAPHIC] [TIFF OMITTED] T0765.124
    
    [GRAPHIC] [TIFF OMITTED] T0765.125
    
    [GRAPHIC] [TIFF OMITTED] T0765.126
    
    [GRAPHIC] [TIFF OMITTED] T0765.127
    
    [GRAPHIC] [TIFF OMITTED] T0765.128
    
    [GRAPHIC] [TIFF OMITTED] T0765.129
    
    [GRAPHIC] [TIFF OMITTED] T0765.130
    
    [GRAPHIC] [TIFF OMITTED] T0765.131
    
    [GRAPHIC] [TIFF OMITTED] T0765.132
    
    [GRAPHIC] [TIFF OMITTED] T0765.133
    
    [GRAPHIC] [TIFF OMITTED] T0765.134
    
    [GRAPHIC] [TIFF OMITTED] T0765.135
    
    [GRAPHIC] [TIFF OMITTED] T0765.136
    
    [GRAPHIC] [TIFF OMITTED] T0765.137
    
    [GRAPHIC] [TIFF OMITTED] T0765.138
    
    [GRAPHIC] [TIFF OMITTED] T0765.139
    
    [GRAPHIC] [TIFF OMITTED] T0765.140
    
    [GRAPHIC] [TIFF OMITTED] T0765.141
    
    [GRAPHIC] [TIFF OMITTED] T0765.142
    
    [GRAPHIC] [TIFF OMITTED] T0765.143
    
    [GRAPHIC] [TIFF OMITTED] T0765.144
    
    [GRAPHIC] [TIFF OMITTED] T0765.145
    
    [GRAPHIC] [TIFF OMITTED] T0765.146
    
    [GRAPHIC] [TIFF OMITTED] T0765.147
    
    [GRAPHIC] [TIFF OMITTED] T0765.148
    
    [GRAPHIC] [TIFF OMITTED] T0765.149
    
    [GRAPHIC] [TIFF OMITTED] T0765.150
    
    [GRAPHIC] [TIFF OMITTED] T0765.151
    
    [GRAPHIC] [TIFF OMITTED] T0765.152
    
    [GRAPHIC] [TIFF OMITTED] T0765.153
    
    [GRAPHIC] [TIFF OMITTED] T0765.154
    
    [GRAPHIC] [TIFF OMITTED] T0765.155
    
    [GRAPHIC] [TIFF OMITTED] T0765.156
    
    [GRAPHIC] [TIFF OMITTED] T0765.157
    
    [GRAPHIC] [TIFF OMITTED] T0765.158
    
    [GRAPHIC] [TIFF OMITTED] T0765.159
    
    [GRAPHIC] [TIFF OMITTED] T0765.160
    
    [GRAPHIC] [TIFF OMITTED] T0765.161
    
    [GRAPHIC] [TIFF OMITTED] T0765.162
    
    [GRAPHIC] [TIFF OMITTED] T0765.163
    
    [GRAPHIC] [TIFF OMITTED] T0765.164
    
    [GRAPHIC] [TIFF OMITTED] T0765.165
    
    [GRAPHIC] [TIFF OMITTED] T0765.166
    
    [GRAPHIC] [TIFF OMITTED] T0765.167
    
    [GRAPHIC] [TIFF OMITTED] T0765.168
    
    [GRAPHIC] [TIFF OMITTED] T0765.169
    
    [GRAPHIC] [TIFF OMITTED] T0765.170
    
    [GRAPHIC] [TIFF OMITTED] T0765.171
    
    [GRAPHIC] [TIFF OMITTED] T0765.172
    
    [GRAPHIC] [TIFF OMITTED] T0765.173
    
    [GRAPHIC] [TIFF OMITTED] T0765.174
    
    [GRAPHIC] [TIFF OMITTED] T0765.175
    
                                    

</pre></body></html>
